Case: 20-1816

Document: 18

Page: 3

Filed: 09/08/2020

UNITED STATES PATENT AND TRADEMARK OFFICE
BEFORE THE PATENT TRIAL AND APPEAL BOARD
Ex parte MATTHEW EARLEY

Appeal 2019-000815
Application 12/925,235
Technology Center 2800
Before ROMULO H. DELMENDO, RAE LYNN P. GUEST, and
MERRELL C. CASHION, JR., Administrative Patent Judges.
DELMENDO, Administrative Patent Judge.
DECISION ON APPEAL
Pursuant to 35 U.S.C. § 134(a), the Appellant1 appeals from the
Primary Examiner’s final decision to reject claims 26—29.2 We have
jurisdiction under 35 U.S.C. § 6(b).
We affirm.

1 We use the word “Appellant” to refer to “applicant” as defined in
37 C.F.R. § 1.42. The Inventor, Matthew Earley, is the Applicant and also
the real party in interest (Appeal Brief filed February 8, 2018 (“Appeal Br. )
at 3).
2 See Appeal Br. 4-11; Reply Brief filed November 5,2018 (“Reply Br.”) at
1-12; Final Office Action entered January 6, 2017 (“Final Act.”) at 8-10;
Examiner’s Answer entered October 3, 2018 (“Ans.”) at 3—17.

AppxOOOl

Case: 20-1816

Document: 18

Page: 4

Filed: 09/08/2020

Appeal 2019-000815
Application 12/925,235
L

BACKGROUND

The subject matter on appeal relates to a fixed pitch wind turbine with
centrifugal weight control (CWC) (original Specification filed October 18,
2010 (“Spec.”) at 1,1. 6). The Specification explains that, in the prior art,
the operating speed for wind turbines is typically up to 25 m/s but the rated
power is typically reached at 14 or 15 m/s (id. at 1,11. 18-19). Thus,
“[cjurrent technology captures and transforms less than half of the energy
content available” (id. at 1,11. 16-17). According to the Specification,
“fixed pitch rotor and centrifugal weight control will permit the generation
of increasing amounts of energy for the full distribution of operating speeds
in both wind and water scenarios” (id. at 1,11. 14—16).
Figure 1, which illustrates an exemplary embodiment of a fixed pitch
wind turbine with CWC (Spec. 1,1. 27), is reproduced from the Drawings
filed October 18, 2010, as follows:

2

Appx0002

Case: 20-1816

Document: 18

Page: 5

Filed: 09/08/2020

Appeal 2019-000815
Application 12/925,235
Figure# 1

Piieh Twtofjss

fesxaLS

S$*«d Shaft

/■ N,

^5.

ewe

towSgeed
$nas»W*

ainmatf

l i#***##**** .^-^'

1

..

H-T Y±y
/

Leva! 2

_

1

\

etenvtiv

iJSffiil

l--------- A—-i
i
i jp i ii i -w

rSh

Levaii

Figure 1 above depicts a fixed wind turbine, which uses a CWC as disclosed
in the Appellant’s earlier patent, Earley,3 the principal prior art reference
applied in the rejection on appeal (id. at 2,11. 2—3). In addition to permitting
the generation of increasing amounts of energy tor the lull distribution of
operating speeds when used with a fixed pitch rotor, as we discussed above,
the Specification states that “[ejmploying CWC (in lieu of pitch or stall
solutions) in conjunction with induction generator torque, enables on
3 US 6,949,842 B2, issued September 27, 2005.
3

Appx0003

Case: 20-1816

Documeni: 18

Page: 6

Filed: 09/08/2020

Appeal 2019-000815
Application 12/925,235
demand control of necessary amounts of opposing torque to manage rotor
speed in gusty and increasing wind speeds through cut-out... typically 25
meters per second” {id. at 2,11.24—27).
Representative claim 26 is reproduced from the Claims Appendix to
the Appeal Brief, as follows:
26. A wind turbine for the production of increasing amounts
of energy in increasing wind speeds up to cut-out at 25 m/s
[comprising:
a supporting framework including: an elevated platform
for the swiveling movement about a vertical axis; a supporting
tower;
a rotor with fixed pitch blades;
a horizontal low speed shaft that couples to said rotor for
rotation with said rotor;
a right angle gearbox that journals said horizontal shaft to
input of said right angle gearbox;
an extended vertical shaft that journals to output side of
said right angle gearbox;
a centrifugal weight control apparatus that drivingly
connects to said extended vertical shaft at base of tower;
a multi-geared transmission having a low speed input
connected to said extended vertical shaft;
a high speed output of said multi-geared transmission;
a clutch that journals to said high speed output and;
an induction generator that operatively connects to said
clutch for rotation at desired speeds.
(Appeal Br. 12 (emphases and indentations added)).

4

Appx0004

Case: 20-1816

Document: 18

Page: 7

Filed: 09/08/2020

Appeal 2019-000815
Application 12/925,235
IL

rejection

ON A PPF.AT,

Claims 26-29 stand rejected under pre-AIA 35 U.S.C. § 103(a) as
unpatentable over Earley, Carter,4 and Simon5 (Ans. 3—17; Final Act. 8—
12).6
HI.
1.

DISCUSSION

Grouping of Claims

v

Unless separately argued within the meaning of 37 C.F.R.
§ 41.37(c)(l)(iv), the rejected claims stand or fall with claim 26, which we
select as representative pursuant to the rule.
2.

The Examiner’s Position

The Examiner finds that Earley describes an apparatus having most of
the structural limitations recited in claim 26 but acknowledges several
differences between the prior art and the claimed subject matter (Final Act.
8-9). Specifically, the Examiner finds that Earley does not disclose: (1) an
extended vertical shaft; (2) a gearbox with a multi-geared transmission; and
(3) an induction-type generator {id. at 9). Relying on Carter and Simon,
however, the Examiner concludes that these differences would have been
obvious to a person having ordinary skill in the art {id. at 9—10). Regarding
difference (1), the Examiner concludes that “[i]t would have been obvious to
one skilled in the art at the time the invention was made to use the extended
vertical shaft disclosed by Carter on the supporting tower disclosed by

4 US 3,942,026, issued March 2,1976.
5 US 2010/0207396 Al, published August 19,2010.
6 All other rejections as set forth in the Final Action have been withdrawn
(Ans. 3; Final Act. 5—7).
5

Appx0005

Case: 20-1816

Document: 18

Page: 8

Filed: 09/08/2020

Appeal 2019-000815
Application 12/925,235
Earley for the purpose of providing mechanical power to a generator located
at the base of a tower” (id. at 10). Regarding differences (2) and (3), the
Examiner concludes:
It would have also been obvious to one skilled in the art at
the time the invention was made to use the multi-speed
transmission (in lieu of the multi-geared transmission disclosed
by Earley) and an induction generator (in lieu of the generator
disclosed by Earley or the generator disclosed by Carter)
disclosed by Simon on the wind turbine disclosed by Earley for
the purpose of providing multiple high-speed outputs instead of
a single high-speed output from the transmission and providing
“a cost-effective machine for converting the rotational energy to
electricity” (see paragraph [0026] of Simon).

m
Regarding claim 26’s preamble limitation, the Examiner finds that the
recitation “for the production of increasing amounts of energy in increasing
wind speeds up to cut-out at 25 m/s’ merely recites an ‘intended use’ of a
wind turbine within a range of naturally occurring wind speeds with the
listed structural elements, elements which are found in the applied prior art”
(Ans. 5). The Examiner explains that the functional limitation recited in the
preamble has not been shown to result in a structural difference that
distinguishes the claimed wind turbine over the wind turbine suggested by
the prior art references (id. at 6-7). Relying on extrinsic documentary
evidence, the Examiner further states that “worldwide mean wind speeds do
not even reach 10 m/s, regardless of location” (id. at 8).
3.

1 'he Appellant’s Contentions

The Appellant contends that claim 26’s preamble recites a functional
limitation that distinguishes the claimed invention over the prior art (Appeal
Br. 4). According to the Appellant, “[c]urrent technology generates

6

Appx0006

Case: 20-1816

Document: 18

Page: y

Filed: 0S/08/2O2O

Appeal 2019-000815
Application 12/925,235
increasing amounts of energy from start up to 15 m/s and continues
operation at rated power up to a cut-out speed of 25 m/s” but “[t]he energy
production curves for all HAWT’s (horizontal axis wind turbine) go
perfectly flat in the range from 15 m/s through 24 m/s and cut-out occurs at
25 m/s” (id. at 5). The Appellant argues that, by contrast, “[t]he claimed
invention generates increasing amounts of energy from start up through 24
m/s and also cuts out at 25 m/s” and that “[tlhe examiner errors [sic! when
he does not accept the fact that increasing amounts of energy can be
generated in the range of 15 to 24 m/s by the claimed invention” (id. at 6).
Furthermore, the Appellant argues that the Examiner articulates an assembly
of the claimed invention from elements found in the prior art references
without providing any suggestion or motivation to do so (id. at 7). The
Appellant also alleges that the claimed invention provides unexpected results
(id. at 8).
Regarding dependent claim 29, the Appellant argues that an
Examiner’s statement that Earley discloses excitation of an induction
generator “is completely false” (Appeal Br. 9-10).
4.

Opinion

The Appellant’s arguments fail to identify reversible error in the
Examiner’s rejection. In re Jung, 637 F.3d 1356, 1365 (Fed. Cir. 2011).
A.

Preamble Limitation Issue

It is well-settled that a prior art reference’s silence with respect to a
function recited in a claim does not necessarily defeat a rejection over that
prior art reference. Cf. In re Schreiber, 128 F.3d 1473, 1477 (Fed. Cir.
1997). “A patent applicant is free to recite features of an apparatus either
structurally or functionally.... Yet, choosing to define an element

7

Appx0007

Case:20-i816

Document: 18

Page: 10

Hied: U9/08/2020

Appeal 2019-000815
Application 12/925,235
functionally, i.e.. by what it does, carries with it a risk.” Id. at 1478. Where
the PTO has reason to believe that a functional limitation asserted to be
critical for establishing patentability in the claimed subject matter may, in
fact, be an inherent characteristic of the prior art, it possesses the authority to
require an applicant to prove that the subject matter shown in the prior art
does not possess the specified characteristic. Id.
Earley’s Figure 1 is reproduced as follows:
WT/CWC Side View

Figure l

I

I

k

Weight *B

—-------V.'

Nacelle #7

|

Wind Direction

Guide 040
Motor an# Geer ael

T1T£F
H

|

v

Jack screw control
,12

snsn »

"

3lades #13

l
Tower# 14

I

i

\

Earley’s Figure 1 above depicts a wind turbine with CWC, which “permits
the capture and transformation of energy in an increasing flow (wind or
water) while maintaining a desired operating speed” and “permits capture
8

Appx0008

Case: 20-1816

Document: 18

Page: 11

Filed: 09/08/2020

Appeal 2019-000815
Application 12/925,235
and transformation of additional offered kinetic energy” (Earley, col. 1,11.
31-49). As the Appellant concedes, Earley’s wind turbine includes a fixed
pitch rotor and a CWC falling within claim 26’s scope (Appeal Br. 7).
Because Earley’s wind turbine includes the same structural elements that the
Appellant discloses are responsible for the functional limitations recited in
claim 26 5s preamble (Spec. 1,11. 14-16), the burden was on the Appellant to
show that Earley’s wind turbine as modified by the suggestions in the other
prior art references would not inherently perform the same function recited
in claim 26. The Appellant does not direct us to any objective evidence in
satisfaction of meeting that burden. See In re Best, 562 F.2d 1252, 1255
(CCPA 1997) (“Whether the rejection is based on ‘inherency’ under 35
U.S.C. § 102, on ‘prima facie obviousness’ under 35 U.S.C. § 103, jointly or
alternatively,0 the burden of proof is the same, and its fairness is evidenced
by the PTO’s inability to manufacture products or to obtain and compare
prior art products.”).
B.

Articulated Reason for Combining References

The Appellant argues that the Examiner fails to articulate a sufficient
reason for combining the references in the manner claimed (Appeal Br. 7).
That is incorrect. The Examiner’s explanation of the rejection articulates
specific reasons in support of combining the references in the manner
claimed by the Appellant (Final Act. 9—10).
Specifically, the Examiner relies on Carter for its disclosure of “an
extended vertical [drive] shaft 80 connecting a right angle gearbox (gears 86
and 98) to a multi-geared transmission (gears 94 and 96) having a low speed
input (first bevel gear 94) and a high speed output (second bevel gear 96) of
said multi-geared transmission” with the high speed output being connected

9

Appx0009

Case: 20-1816

Document: ib

Page: 12

Plied: 09/08/2U20

Appeal 2019-000815
Application i 2/920,23 5
to a first generator 100 (Final Act. 9 (bolding added); Carter, Fig. 1: col. 3,1.
4i-coi. 4,1. i3). Based on this finding, the Examiner concludes that “[ijt
would have been obvious to one skilled in the art... to use the extended
vertical [drive] shaft disclosed by Carter on the supporting tower disclosed
by Earley for the purpose of providing mechanical power to a generator
located at the base of a tower” (Final Act 10).
The Examiner further relies on Simon for its disclosure of an
induction generator, which provides a cost-effective machine for converting
rotational energy to electricity (Final Act. 9; Simon f 26). Based on this
disclosure, the Examiner concludes that a person having ordinary skill in the
art would have implemented an induction generator in Earley for the purpose
of providing, inter alia, a cost-effective machine for converting the
rotational energy to electricity (Final Act. 10).
The Appellant, on the other hand, does not identify the specific
error(s) in the Examiner’s articulated reasoning that warrants reversal. Jung,
637 F.3d at 1365-66 (‘“reversible error’ means that the applicant must
identify to the Board what the examiner did wrong”).
C.

Unexpected Results

Although the Appellant argues that unexpected results are achieved,
the Appellant does not direct us to objective, experimental data comparing
the claimed invention against the closest prior art. Indeed, as we found
above, Earley explicitly teaches that the disclosed wind turbine with CWC
“permits the capture and transformation of energy in an increasing flow
(wind or water) while maintaining a desired operating speed” and “permits
capture and transformation of additional offered kinetic energy” (Earley, col.
1,11.31—49). Therefore, the Appellant’s unsupported argument is

10

Appx0010

Case: 20-1816

Document: 18

Page: 13

Filed: 09/08/2020

Appeal 2019-000815
Application i2/yz5,235
unpersuasive. In re Baxter Travenol Labs.. 952 F.2d 388,392 (Fed. Cir.
1991) (“[W]hen unexpected results are used as evidence of nonobviousness,
the results must be shown to be unexpected compared with the closest prior
art.... Mere recognition of latent properties m tJie prior art does not render
nonobvious an otherwise known invention.”).
For these reasons, we uphold the examiner s rejection as maintained
against claim 26.
U. Claim 29
Regarding claim 29, the Appellant argues that Earley does not
disclose an induction generator or excitation and that the Examiner’s
findings to the contrary are “completely false” (Appeal Br. 9—10). As the
Examiner points out (Ans. 17) and as we discussed above, the rejection
relies on Simon for the induction generator limitation.
Therefore, we also maintain the rejection as maintained against claim
29.
IV.

CONCLUSION

In summary:

i

Claims
Rejected
26-23
-

35 U.S.C. §
1C3'-'
v*v

Reference(s)/Ba$is
Earley, CaiiCi, SiillOii

Affirmed
,26 2?

Reversed
i

No time period for taking any subsequent action in connection with
this appeal may be extended under 37 C.F.R. § 1.136(a).
AFFIRMED

11

Appx0011

Case: 2u- ittib

Document: id

Page: i4

Fiied: 0y/06/2u2u

UNITED STATES PATENT AND TRADEMARK OFFICE
BEFORE THE PATENT TRIAL AND APPEAL BOARD
Ex parte MATTHEW EARLEY

Appeal 2019-000815
Application 12/925,235
Technology Center 2800
Before ROMULO H. DELMENDO, RAE LYNN P. GUEST, and
MERRELL C. CASHION, JR., Administrative Patent Judges.
DELMENDO, Administrative Patent Judge.
DECISION ON REQUEST FOR REHEARING
The Appellant1 requests rehearing of our Decision on Appeal entered
November 14, 2U19 (“original Decision" or “original Dec."), m wnicii we
affirmed the Primary Examiner’s final decision to reject claims 26-29
^Request for Rehearing filed November 27,2019 ("Request or “Req.
Reh’g”). We have jurisdiction under 35 U.S.C. § 6.
t he Appellant’s arguments m tne Request do not provide any
substantive arguments on the merits to establish that we misapprehended or
overlooked any point in our original Decision (Req. Reh’g 1). Rather, the

1 We use the word “Appellant” to refer to “applicant” as defined in
37 C.F.R. § 1.42. The Inventor, Matthew Earley, is the Applicant and also
the real party in interest (Appeal Brief filed February 8, 2018 (“Appeal Br.”)
at 3).

Appx0012

Case: 20-1816

Document: 18

Page: 15

Filed: 09/08/2020

Appeal 2019-000815
Application 12/925,235
Appellant contends that we changed the ground of rejection to a new
rejection under 35 U.S.C. § 102 because we cited to In re Schreiber, 128
F.3d 1473,1477,1478 (Fed. Cir. 1997) in our original Decision, whereas the
Examiner cited to Kropa v. Robie, 187 F.2d 150, 152 (CCPA 1951) (Req.
Reh’g 1). According to the Appellant, “[i]n the PTAB’s Decision on
Appeal!,j the [attirmance of thej rejection of... Claim 26 was based on
[Schreiber,] stating that [the] function found in preamble is also found in
prior art of Earley" and '"that this is, in fact, an undesignated new ground of
rejection” (id.). The Appellant states further that, should the Appellant
"have an opportunity to respond to the new rejection, the necessary ‘proof'
may already be at hand” (id. (referring to arguments made on pages 3-6 in a
Reply filed November 23,2015, which is attached to the Request, and the
Examiner’s response in a Non-Final Office Action entered December 9,
2015 (paragraph 8)),
We maintain our affirmance of the Examiner’s rejection for the
reasons given in our original Decision. For the reasons discussed below, we
also do not agree with the Appellant that we entered an undesignated new
ground of rejection in our original Decision. But given the Appellant’s pro
se status and the complex nature of this prosecution, we hereby grant—out
of an abundance of caution—the Appellant’s request to designate our
affirmance as a new ground of rejection to afford the Appellant with all the
procedural safeguards. See, e.g., 37 C.F.R. § 41.37(c)(1) (“[A] brief filed by
an appellant who is not represented by a registered practitioner need only
substantially comply with paragraphs (c)(l)(i), (c)(1)(H), (c)(l)(iv), and
(c)(l)(v) of this section.”).

2

Appx0013

Case: 20-1 bib

Document: is

Page: 1b

Plied: 09/08/2020

Appeal 2019-000815
Application 12/925,235
For completeness, we explain why our original Decision did not
include an undesignated new ground or rejection. Altnougn tne Appellant is
correct that Schreiber decided an anticipation rejection under 35 U.S.C.
§ 102(b), 128 F.3d at 1475, we cited to it using the signal uCf.”2 for the
proposition that: (i) “[i]t is well-settled that a prior art reference’s silence
with respect to a function recited in a claim does not necessarily defeat a
rejection over that prior art reference”; (ii) an applicant is free to recite
features of an apparatus either structurally or functionally, but functional
claiming carries with it a risk; and (iii) “[wjhere the PTO has reason to
believe that a functional limitation asserted to be critical for establishing
patentability in the claimed subject matter may, in fact, be an inherent
characteristic of the prior art, it possesses the authority to require an
applicant to prove that the subject matter shown in the prior art does not
possess the specified characteristic” (original Dec. 7-8). Furthermore, we
cited to In re Best, 562 F.2d 1252, 1255 (CCPA 1997), for the proposition
that this shifting in the burden of production may, if warranted, be
appropriate in either a 35 U.S.C. § 102 or 35 U.S.C. § 103 context (original
Dec. 9).
While it is true that the Examiner discussed the Kropa case (Ans. 45), the Examiner also pointed out that a claim to an apparatus must oe
distinguished patentably from the prior art in terms of structure rather than
function {id. at 1U). indeed, the Exammer found that the Appellant failed to
prove that the result recited in claim 26’s preamble was sufficient to confer

2 «

Cf” indicates that the cited authority supports a proposition different
from the main proposition but sufficiently analogous to lend support—i.e., to
compare. The Bluebook?: A Uniform System of Citation 59 (20* ed.).
3

Appx0014

Case: 20-1816

Document: 18

Page: 17

Filed: 09/08/2020

Appeal 2019-000815
Application i2/925,235
novelty or “unexpected results” over the prior art (id. at 14). In this regard,
the Examiner found that “Earley clearly teaches ... a centrifugal weight
control apparatus (CWC in Figures 1 and 3)” (Final Act. 8) and that “t]he
only additional structural component added by the Appellant is the
‘Centrifugal Weight Control’ system, invented by the Appellant, p[l]aced
between the vertical shaft and the input of the rotational speed and torque
adjusting mechanism” (Ans. 13). We expounded upon the Examiner’s
position, but we did not alter it to the extent tnat our original Decision
included an undesignated new ground of rejection—i.e., we did not change
the basic thrust of the Examiners rejection, in re Jung, 637 F.3d 1356,
1365 (Fed. Cir. 2011) (explaining that limiting the Board’s decision to
“verbatim repetition of the examiner's office actions ... would ill-serve the
Board’s purpose as a reviewing body”); In reKronig, 539 F.2d 1300,1302—
03 (CCPA 1976) (no new ground of rejection where an appellant has had an
opportunity to react to the thrust of the rejection).
As we stated above, in view of the Appellant’s pro se status and the
complex nature of this prosecution, it is appropriate to designate our
affirmance as a new ground of rejection pursuant to 37 C.F.R. § 41.50(b).
37 C.F.R. § 41.50(b) provides “[a] new ground of rejection pursuant to this
paragraph shall not be considered final for judicial review.”
37 C.F.R. 8 41.50(b) also provides that the Appellant, WITHIN TWO
MONTHS FROM THE DATE OF THIS DECISION, must exercise one of
the following two options with respect to the new ground of rejection to
avoid termination of the appeal as to the rejected claims:

4

Appx0015

Case: 20-1816

Document: 18

Page: 18

Piled: 09/08/2020

Anneal 2019-000815
Appiiuauon
(11 Reoven vrosecution. Submit an aDDroDriate
amendment of the claims so rejected or new evidence relating
to the claims so rejected, or both, and have the matter
reconsidered by the examiner, in which event the proceeding
will be remanded to the examiner....
(2) Request rehearing. Request that the proceeding be
reheard under §41.52 by the Board upon the same record....
iV.

CONCLUSION

In summary:
Outcome of Decision on Rehearing
,

Claims
26-29

—

_ -C A

I DftJms

Denied

l 35 U.S.C. | Referencc(s)/Basis
s
Earley, Carter,
103(a)
Simon

26-29
fnewlv
j rejected)

^1 - ^ ~ T> - U

i

i 1*

t Affirmed I fipvmerf l

Ground

Rejected L,S.C.
r

[ Granted

£«

/ \

J.

yHy

/•

Ti _ .1

AO

_r

ry O

■~J 9

Simon
No time period for taking any subsequent action in connection with
this appeal may be extended under 37 C.F.R. § 1.136(a).
GRANTED/AFFIRMED: 37 C.F.R. § 41.50(b)

5

Appx0016

Case: 20-1816

Document: 18

Page: 19

Filed: 09/08/2020

UNITED STATES PATENT AND TRADEMARK OFFICE

BEFORE THE PATENT TRIAL AND APPEAL BOARD

Ex parte MATTHEW EARLEY

Appeal 2019-000815
Application 12/925,235
Technology Center 2800

Before ROMULO H. DELMENDO, RAE LYNN P. GUEST, and
MERRELL C. CASHION, JR., Administrative Patent Judges.
DELMENDO, Administrative Patent Judge.

SECOND DECISION ON REQUEST FOR REHEARING
The Appellant1 requests a rehearing, based upon the same record
pursuant to 37 C.F.R. § 41.50(b)(2) (Second Request for Rehearing filed
February 12, 2020; “Second Req. Reh’g”), of our first Decision on Request
for Rehearing Appeal entered January 27,2020 (“First Dec. Req. Reh’g”).2
We have jurisdiction under 35 U.S.C. § 6. For the reasons given below, we
deny the Appellant’s second Request for Rehearing.
1 We use the word “Appellant” to refer to “applicant” as defined in
37 C.F.R. § 1.42. The Inventor, Matthew Earley, is the Applicant and also
the real party in interest (Appeal Brief filed February 8, 2018 (“Appeal Br.”)
at 3).
2 In our first Decision on Request for Rehearing, we reaffirmed the Primary
Examiner’s final decision to reject claims 26-29 but designated our decision
as including a new ground of rejection given the Appellant’s pro se status
and the complex nature of this prosecution (First Dec. Req. Reh’g. 2).

Appx0017

Case: 20-1816

Document: 18

Page: 20

Filed: 09/08/2020

Appeal 2019-000815
Application 12/925,235
According to the Appellant, the arguments in the second Request for
Rehearing are “directed exclusively at independent claim 26 with a focus on
disclosed and inherent characteristics of prior art related to size, function,
operation, and structure of the claimed invention” (Second Req. Reh’g 1).
Therefore, all claims on appeal stand or fall with claim 26. 37 C.F.R.
§ 41.37(c)(l)(iv).
We have fully considered the Appellant’s arguments in this Second
Request for Rehearing, but these arguments are unpersuasive to establish
that we misapprehended or overlooked any point in our First Decision on
Request for Rehearing. 37 C.F.R. § 41.52(a).
The Appellant argues that Simon,3 which the Examiner cites for the
“induction generator” limitations in claim 26 (Final Act. 9), “is sized to
reach rated power at approximately 12 m/s” and, therefore, “would not
permit the production of increasing amounts of electrical energy through 24
m/s as is accomplished in the claimed invention” (Second Req. Reh’g 2).
According to the Appellant, “[a]n induction generator with a 12 m/s rating
would render the claimed invention inoperable for its intended use”—i.e.,
where “[t]he claimed invention is unique in its ability to generate increasing
amounts of energy through 24 m/s” (id. at 2-3).
The Appellant’s argument regarding Simon’s induction generator,
however, is not supported by objective evidence (e.g., a sworn declaration).4
3 US 2010/0207396 Al, published August 19, 2010.
4 In re De Blmuwe, 736 F.2d 699, 705 (Fed. Cir. 1984) (“Mere argument or
conclusory statements in the specification does not suffice.”); In re Lindner,
457 F.2d 506, 508 (CCPA 1972) (“[M]ere conclusory statements in the
specification and affidavits are entitled to little weight when the Patent
Office questions the efficacy of those statements.”).
2

Appx0018

Case: 20-1816

Document: 18

Page: 21

Filed: 09/08/2020

Appeal 2019-000815
Application 12/925,235
Simon teaches that an induction generator provides a cost-effective machine
for converting rotational energy to electricity for power to an electric grid
(Simon f 26). According to Simon, “[t]he input energy from [a] turbine . ..
provides rotational power to the output... that attempts to force the
induction generator to rotate faster than its reference speed” and that “[t]his
places the induction generator in a positive slip condition and causes it to
generate power” (id ). Given that (i) Simon does not place any limitations
on wind speed (id. 63 (teaching that “[s]pecific sizing of the generators is
dependent upon turbine size and efficiency” and also showing an exemplary
turbine size of 10 m radius and 45% efficiency only), and (ii) Earley teaches
that the centrifugal weight control (CWC) described therein permits
additional energy to be transformed into electricity at higher than
conventional flow speeds (Earley, col. 1,11. 15-33; col. 2,11. 14-20), we
conclude that a person having ordinary skill in the art would have found it
obvious to size and select an induction generator as suggested by Simon to
match the enhanced capabilities of Earley’s CWC.5 The Appellant does not
offer objective evidence that such a modification of Earley’s system would
have been beyond the technical grasp of a person having ordinary skill in the
art.6 Thus, although we appreciate that claim 26’s preamble language recites
a new capability rather than merely an intended use, this capability was
5 KSR Int 7 Co. v. Teleflex Inc., 550 U.S. 398,420 (2007) (“[Fjamiliar items
may have obvious uses beyond their primary purposes, and in many cases a
person of ordinary skill will be able to fit the teachings of multiple patents
together like pieces of a puzzle.”).
6 KSR, 550 U.S. at 421 (“When there is a design need or market pressure to
solve a problem and there are a finite number of identified, predictable
solutions, a person of ordinary skill has good reason to pursue the known
options within his or her technical grasp.”).
3

Appx0019

Case: 20-1816

Document: 18

Page: 22

Filed: 09/08/2020

Appeal 2019-000815
Application 12/925,235
already disclosed in Earley, as we recounted above and in our prior
Decisions, and when Earley and Simon are combined, the advantages latent
in Earley would reasonably be expected to flow from their combination.
The Appellant argues that “[i]n the claimed invention[,] the CWC acts
as a buffer, accommodates gear changes, and plays m minor role in
controlling and stopping the wind turbine as wind speeds approach 25 m/s”
(Second Req. Reh’g at 3 (emphasis added)). In addition, referring to
arguments offered earlier in the prosecution, the Appellant argues that
“current wind turbines” generate increasing amounts of energy up to a wind
speed of 15 m/s but then energy generation flattens beyond that wind speed
(id.) (emphasis omitted). With specific reference to Earley’s Figures 1 and
3, the Appellant argues that Earley’s CWC functions as an air brake and
would inhibit the kind of energy production that is quantified in the current
application (id. at 7). According to the Appellant, the rotating CWC guides,
jackscrews, and weights will impart a certain amount of drag that would
increase as the weights extend during routine operation (id.). This
allegation, however, amounts to mere argument, not objective evidence,
relative to Earley’s system including an improved CWC.1 In this regard, the
Appellant’s argument appears to be at odds with the disclosures found in
Earley and the current Specification (Earley, col. 1,11. 15-33; col. 2,11. 1420; Specification filed October 18, 2010 (“Spec.”) 1,11. 14-16). The
Appellant does not direct us to any language in claim 26 that would
positively exclude rotating CWC guides, jackscrews, or weights.
The Appellant argues:

7 In re Baxter TravenolLabs., 952 F.2d 388, 392 (Fed. Cir. 1991).
4

Appx0020

Case: 20-1816

Document: 18

Page: 23

Filed: 09/08/2020

Appeal 2019-000815
Application 12/925,235
Figure 1 ... in prior art of Earley discloses CWC with an
identical diameter to rotor/blade assembly. In the claimed
invention this would be 36 meters. It is inherently a very large
air brake. The prior art of Earley discloses both an electro­
mechanical and (inherent) aerodynamic means for speed control
through 24 m/s.
The claimed invention is operationally unique in that it has
no aerodynamic means of controlling rotor speed. It offers two
electromechanical means of speed control. They are opposing
torque of the induction generator rated at 25 m/s and CWC.
CWC in the claimed invention is at the bottom of the tower; has
a ten fit. diameter; extends and retracts weights totaling 8
thousand pounds.
Examiner does not modify the induction generator so that
it would be effective in the claimed invention. Per figure 6 of the
claimed invention the Simon generator sized for rated power at
12 m/s would have a rating of 479 kW. The induction generator
employed in the claimed invention would have a rating of
approximately 2,308 kW. (See fig. #6 / power column — in
specification).
(Second Req. Reh’g 5).
Again, the Appellant’s argument is based merely on conclusory
statements that are not accompanied by any objective evidence (e.g.,
declaration evidence) providing detailed specifics of the systems used for
comparison.8 But even if this argument had been supported by objective
evidence, claim 26 does not recite any of the argued features (e.g., a
limitation on air brake size, the exclusion of an aerodynamic means, a CWC
diameter, ability to extend or retract weights totaling eight thousand pounds,

De Blmuwe, 736 F.2d at 705; Lindner, 457 F.2d at 508.
5

Appx0021

Case: 20-1816

Page: 24

Document: 18

Filed: 09/08/2020

Appeal 2019-000815
Application 12/925,235
or induction generator rating) relied on for patentability.9 Also, the
Appellant points to Figure 6 of the subject application, but that Figure is
described as “a 20-year projection for a 36-meter system with power totals at
15 m/s for current solution and 25 m/s for the discussed solution” (Spec. 1,
11.20-21). The specific details of the “current solution” and the “discussed
solution” are not provided, so a meaningful comparison of the claimed
invention against the closest prior art, which is Earley, cannot be undertaken.
For these reasons and those provided in our earlier Decisions, we
uphold the Examiner’s rejection.
IV.

CONCLUSION

In summary:
Outcome of Decision on Rehearing
35 U.S.C.

Claims
Rejected

1

103(a)

26-29

Reference(s)/Basis
Earley, Carter,
Simon

Denied

Granted

26-29

Outcome of Appeal after Rehearing:
35
Claims
Rejected U.S.C.

i
26-29

103(a)

Reference(s)/Basis Affirmed Reversed
26-29

Earley, Carter,
Simon

9 In re Self, 671 F.2d 1344,1348 (CCPA 1982) (“[Appellant’s arguments
fail from the outset because ... they are not based on limitations appearing
in the claims.”).
6

Appx0022

Case: 20-1816

Document: 26

Page: 1

Filed: 12/14/2020

Note: This disposition is nonprecedential.

Untteb States Court of Appeals
for tfjc eberal Circuit
IN RE: MATTHEW EARLEY,
Appellant
2020-1816
Appeal from the United States Patent and Trademark
Office, Patent Trial and Appeal Board in No. 12/925,235.
Decided: December 14, 2020
Matthew Earley, Allenwood, NJ, pro se.
MARY L. KELLY, Office of the Solicitor, United States
Patent and Trademark Office, Alexandria, VA, for appellee
Andrei lancu. Also represented by MICHAEL S. FORMAN,
Thomas W. Krause, Amy J. Nelson, Farheena Yasmeen
Rasheed.
Before Prost, Chief Judge, Clevenger and Taranto,
Circuit Judges.
Per Curiam.
Matthew Earley is the named inventor on U.S. Patent
Application No. 12/925,235 (the ’235 application), titled
“Fixed Pitch Wind (or Water) Turbine with Centrifugal

Appx0023

Case: 20-1816

Document: 26

Page: 2

Filed: 12/14/2020

IN RE: EARLEY

2

Weight Control (CWC).” The examiner rejected claims 2629 of the ’235 application for obviousness based on one of
Mr. Earley’s prior patents, i.e., U.S. Patent No. 6,949,842
(the ’842 patent), in combination with U.S. Patent No.
3,942,026 (Carter) and U.S. Patent Publication No.
2010/0207396 (Simon). The Patent Trial and Appeal Board
affirmed the examiner’s rejections. We affirm the Board.
I
The ’235 application, filed on October 18, 2010, involves
fixed-pitch wind or water turbines with centrifugal weight
control. J.A. 30. For this appeal, the application’s disclosures on wind turbines are most relevant. The application
builds on Mr. Earley’s ’842 patent and uses that earlier pa­
tent’s “control solution”—a centrifugal-weight-control asThis application describes “an
J.A. 31.
sembly.
implementation” that “extend[s] the low speed shaft down
the length of the tower” of a wind turbine. J.A. 31. Accord­
ing to the ’235 application, “extending the low speed shaft
down the length of the tower also means you can move
other major components down, including [a] generator and
[a] gearbox,” resulting “in several compelling advantages.”
J.A. 31. The centrifugal-weight-control “configuration is
horizontal (perpendicular to [the] vertical low speed
shaft).” J.A. 32.
Figure 1 illustrates the wind-turbine embodiment:

Appx0024

Case: 20-1816

Document: 26

Page: 3

Filed: 12/14/2020

3

IN RE:EARLEY

Figure# 1

\ N.
\ \

36 Meter fixedPitch Tmteatf

msm

\
?

-V'
/K

Fixed Pitch

/ /

feswAJ.

SideView

/ ;
/ /

JL

l/

| CeiMUth

. —tPw ep**6<3 SftfiR

|

tes-ESSci.-----

U SSetere

CJwnwWt*

WcItMa

Ld«Speed f
Shaft 16" vj
diameter f

1

, «se»wnt*,*!s,e«

etiaiTtetMr

Level Z
Level t

J.A. 35.
The specification asserts that this configuration is an
improvement over the prior art. It says: “Employing [cen­
trifugal weight control] (in lieu of pitch or stall solutions)
in conjunction with induction generator torque, enables on
demand control of necessary amounts of opposing torque to
manage rotor speed in gusty and increasing wind speeds
through cut-out ... typically 25 meters per second.” J.A.

Appx0025

Case: 20-1816

Document: 26

Page: 4

Filed: 12/14/2020

IN RE: EARLEY

4

31 (second alteration in original). “Current technology cap­
tures and transforms less than half of the energy content
available,” the specification states, explaining that, in the
prior art, “the operating speed [for wind turbines] is typi­
cally up to 25 m/s” but the “rated power is typically reached
at 14 or 15 m/s.” J.A. 30. The arrangement in the ’235
application purports to use more of the available energy.
Claim 26 is representative and recites:
A wind turbine for the production of in­
creasing amounts of energy in increasing
wind speeds up to cut-out at 25 m/s [c]ompris­
ing:
a supporting framework including:
an elevated platform for the swiveling
movement about a vertical axis;
a supporting tower;
a rotor with fixed pitch blades;
a horizontal low speed shaft that couples to
said rotor for rotation with said rotor;
a right angle gearbox that journals said
horizontal shaft to input of said right angle
gearbox;
an extended vertical shaft that journals to
output side of said right angle gearbox;
a centrifugal weight control apparatus that
drivingly connects to said extended vertical
shaft at base of tower;
a multi-geared transmission having a low
speed input connected to said extended vertical
shaft;
a high speed output of said multi-geared
transmission;

Appx0026

Case: 20-1816

Document: 26

Page: 5

Filed: 12/14/2020

5

IN RE: EARLEY

a clutch that journals to said high speed
output[; and]
an induction generator that operatively
connects to said clutch for rotation at desired
speeds.
J.A. 756 (emphasis added).
II
A
The examiner and the Board relied on three prior-art
references—the ’842 patent, Carter, and Simon—for reject­
ing representative claim 26.
The ’842patent: “Centrifugal Weight Control for a Wind
or Water Turbine.” The ’842 patent lists Mr. Earley as the
inventor and describes a “centrifugal weight control” as­
sembly that “control[s] rotor speed” while wind (or water)
speed changes. ’842 patent, col. 2, lines 14—18. The assem­
bly includes weights that can be moved away from or to­
ward the rotational axis to change the inertial force. Id.,
col. 2, lines 30-50. By adjusting the location of the weights
while the overall assembly rotates, the centrifugal-weightcontrol assembly can maintain the wind turbine’s operat­
ing speed while increasing rolling torque, which allows
generators to capture energy. Id. The general concept is
similar to changing gears on a bike. Unlike the ’235 appli­
cation, the centrifugal-weight-control assembly of the ’842
patent is essentially parallel to the blades of a wind turbine
and not connected to a vertical shaft.
Figure 1 shows the placement of the assembly:

Appx0027

Case: 20-1816

Document: 26

Page: 6

Filed: 12/14/2020

IN RE: EARLEY

6

WT/CWC Side View
Figure 1

^ Weigttt #8

51
#7

X

Wind Direction

— Jsefe serais?

]■

-^■ Guide #10

i

!i

Motor end Gear set
■

p
Low
Speed

I.

s
Blades iff 13

-

for

iack screw control
#12

j!

i

11 \ I
!

I

f
■i

I

1
\
\

\
t

t Tower # 14 \

II

i

>
\
s

\

’842 patent, fig. 1.
Carter: “Wind Turbine with Governor.” Carter “gener­
ally relates to a wind driven turbine assembly for driving a
generator or generators in a manner to produce electrical
energy in response to rotation of the wind turbine.” Carter,
col. 1, lines 6-9. Carter describes “a wind turbine assembly
including a single vertical drive shaft drivingly connected
to a generator assembly and a governor assembly for con­
trolling the rotational speed of the drive shaft by connect­
ing additional generators to the drive shaft for increasing

Appx0028

Case: 20-1816

Document: 26

Page: 7

Filed: 12/14/2020

7

IN RE:EARLEY

the load thereon.” Id., col. 1, lines 37—43. “The horizontal
shaft is drivingly connected to a vertical shaft which drives
a generator assembly at the lower end of the supporting
framework. A wind vane assembly is connected to the
turntable and a governor assembly is drivingly connected
to the horizontal shaft for controlling the rotational speed
of the wind wheels and horizontal shaft.” Id., Abstract.
Figure 1 shows the location of the transmission and
generator at the base of the turbine:

'HN
•kiirM
i- I1
i

i \--so

Ji

!
i

U

i
(
!
I
i
f

\

<m'r 6S

,te

se
94^

eo-^sa f j

?■

/a?

\
j*?.

so I

\

re

fQ4

JOS

—jU.

3

___

Carter, fig. 1.
Simon: “Power Generating System.” This prior-art ref­
erence describes “[a] system for converting wind power to

Appx0029

Case: 20-1816

Document: 26

Page: 8

Filed: 12/14/2020

IN RE: EARLEY

8

electrical power comprising a transmission module with
multiple power flows to an output and a first generator cou­
pled to the output.” Simon, Abstract. In particular, Simon
describes a “power conversion module 18” with “an induc­
tion generator, which provides a cost-effective machine for
converting the rotational energy to electricity for power to
the grid 22.” Id., 1 26. Simon also describes a multi-geared
transmission, namely, “a transmission 30 selectable be­
tween at least two gear ratios, for example!,] a three (or
more) speed transmission, coupled between the turbine 10
for receiving wind energy and at least one generator 36 in
the power conversion module 18.” Id., if 30.
B
On January 6, 2017, the examiner issued Mr. Earley a
final rejection of claims 26-29 for obviousness over the
combination of the ’842 patent, Carter, and Simon. J.A.
598 (Final Rejection). The examiner determined that the
’842 patent disclosed all claim elements except (1) an ex­
tended vertical shaft, (2) a gearbox with a multi-geared
transmission, and (3) an induction-type generator. J.A.
598-99. As to “an extended vertical shaft,” the examiner
concluded that “[i]t would have been obvious to one skilled
in the art at the time the invention was made to use the
extended vertical shaft disclosed by Carter on the support­
ing tower disclosed by [the ’842 patent] for the purpose of
providing mechanical power to a generator located at the
base of a tower.” J.A. 600. As to “a gearbox with a multigeared transmission” and “an induction-type generator,
the examiner determined:
It would have also been obvious to one skilled
in the art at the time the invention was made to
use the multi-speed transmission (in lieu of the
multi-geared transmission disclosed by [the ’842
patent]) and an induction generator (in lieu of the
generator disclosed by [the ’842 patent] or the gen­
erator disclosed by Carter) disclosed by Simon on

Appx0030

Case: 20-1816

Document: 26

Page: 9

Filed: 12/14/2020

9

IN RE: EARLEY

the wind turbine disclosed by [the ’842 patent] for
the purpose of providing multiple high-speed out­
puts instead of a single high-speed output from the
transmission and providing “a cost-effective ma­
chine for converting the rotational energy to electric­
ity•”
J.A. 600 (quoting Simon, t 26).
On November 14, 2019, the Board affirmed the exam­
iner’s rejections. Ex parte Earley, 2019 Fat. App. LEXIS
10527, *2 (P.T.A.B. November 14, 2019). In reaching that
result, the Board rejected three arguments. The Board
first explained that the ’842 patent’s “wind turbine in­
cludes the same structural elements that [Mr. Earley] dis­
closes are responsible for the functional limitations recited
in claim 26’s preamble.” Id. at *9-10 (citation omitted).
For that reason, explained the Board, “the burden was on
[Mr. Earley] to show that [the ’842 patent’s] wind turbine
as modified by the suggestions in the other prior art refer­
ences would not inherently perform the same function re­
cited in claim 26.” Id. at *10. Because Mr. Earley did not
“direct” the Board “to any objective evidence,” he did not
meet the burden. Id. Next, the Board rejected Mr. Earley’s
challenge of the motivation to combine the three prior-art
references. The Board accepted the examiner’s explana­
tion that a relevant artisan would have used the vertical
shaft taught in Carter “for the purpose of providing me­
chanical power to a generator located at the base of a
tower.” Id. at *5-6. As to Simon, the Board found that a
relevant artisan “would have implemented an induction
generator in [the ’842 patent] for the purpose of providing,
inter alia, a cost-effective machine for converting the rota­
tional energy to electricity.” Id. at *11-12. Last, the Board
rejected Mr. Earley’s contention that the ’235 application’s
claimed invention achieves unexpected results. Id. at *1213. The Board reasoned that Mr. Earley did “not direct us
to objective, experimental data comparing the claimed

Appx0031

Case: 20-1816

Document: 26

Page: 10

Filed: 12/14/2020

IN RE:EARLEY

10

invention against the closest prior art,” so his argument
was “unsupported” and “unpersuasive.” Id. at *12.
Mr. Earley requested a rehearing, arguing that the
Board relied on a new ground of rejection. On January 27,
2020, the Board maintained its affirmance of the exam­
iner’s rejection, but because of Mr. Earley’s “pro se status
and the complex nature of this prosecution,” the Board
thought it was “appropriate to designate [its earlier] affir­
mance as a new ground of rejection pursuant to 37 C.F.R.
§ 41.50(b).” Ex parte Earley, Appeal 2019-000815, 2020
WL 489476, at *3 (P.T.A.B. Jan. 27, 2020). Based on that
designation, the Board gave Mr. Earley two options to ad­
dress the ground: reopen prosecution or request a rehear­
ing. Id.
Mr. Earley chose to request a rehearing. On March 11,
2020, the Board denied that (second) request for rehearing
on the merits. Ex parte Earley, Appeal 2019-000815, 2020
WL 1286056, at *2-3 (P.T.A.B. Mar. 11, 2020). Mr. Earley
contended that Simon’s induction generator could not meet
the capability in the preamble because “[a]n induction gen­
erator with a 12 m/s rating would render the claimed in­
vention inoperable for its intended use—i.e., where [t]he
claimed invention is unique in its ability to generate in­
creasing amounts of energy through 24 m/s.” Id. at *1 (in­
ternal quotation marks omitted). The Board rejected that
contention because it was “not supported by objective evi­
dence (e.g., a sworn declaration).” Id. Mr. Earley also as­
serted that the ’842 patent’s centrifugal-weight-control
assembly would “inherently” act as “a very large air brake,”
causing the capability requirement of the new application’s
preamble not to be met. Id. at *2. The Board rejected the
assertion, stating that it was “based merely on conclusory
statements that are not accompanied by any objective evi­
dence (e.g., declaration evidence) providing detailed specif­
ics of the systems used for comparison.” Id.

Appx0032

Case: 20-1816

Document: 26

Page: 11

IN RE:EARLEY

Filed: 12/14/2020

li

Mr. Earley timely appealed. We have jurisdiction un­
der 35 U.S.C. § 141(a) and 28 U.S.C. § 1295(a)(4)(A).
Ill
Accepting that claim 26 is representative, Mr. Earley
challenges the Board’s determination of obviousness of
claim 26 based on the ’842 patent, Carter, and Simon. The
ultimate obviousness determination under 35 U.S.C. § 103
is a matter of law based on underlying factual findings,
which include “the scope and content of the prior art, the
differences between the prior art and the claimed inven­
tion, the level of ordinary skill in the art, the presence or
absence of a motivation to combine or modify with a rea­
sonable expectation of success, and objective indicia of non­
obviousness.” Ariosa Diagnostics v. Verinata Health, Inc.,
805 F.3d 1359, 1364 (Fed. Cir. 2015). We review the
Board’s ultimate obviousness determination de novo and
its underlying factual findings for substantial-evidence
support. In re Varma, 816 F.3d 1352,1359 (Fed. Cir. 2016).
Our review for substantial-evidence support “ask[s]
whether a reasonable fact finder could have arrived at the
agency’s decision, which requires examination of the record
as a whole, taking into account evidence that both justifies
and detracts from an agency’s decision.” Personal Web
Technologies, LLC v. Apple, Inc., 848 F.3d 987, 991 (Fed.
Cir. 2017) (cleaned up).
A
Mr. Earley challenges the Board’s finding that a rele­
vant artisan would have a motivation to combine teachings
of the ’842 patent, Carter, and Simon to arrive at claim 26’s
structure with a reasonable expectation that the result
would be capable, as required by claim 26’s preamble, of
“the production of increasing amounts of energy in increas­
ing wind speeds up to cut-out at 25 m/s.” First, Mr. Earley
asserts that use of Simon’s induction generator would
make the combination inoperable. Second, Mr. Earley as­
serts that the ’842 patent’s centrifugal-weight-control

Appx0033

Case: 20-1816

Document: 26

Page: 12

Filed: 12/14/2020

IN RE: EARLEY

12

assembly is “very different” from the claimed invention and
would not have the preamble-required capability. Op. Br.
8. We reject these contentions.
At the core of these contentions, which focus as a sub­
stantive matter on a reasonable expectation of success, is a
challenge to the Board’s demand for objective evidence. We
address that challenge through the framework applicable
during prosecution (in contrast to district-court litigation).
“[T]he concept of prima facie obviousness establishes the
framework for the obviousness determination and the bur­
dens the parties face” during patent examination. ACCO
Brands Corp. v. Fellowes, Inc., 813 F.3d 1361, 1365 (Fed.
Cir. 2016); see also In re Brandt, 886 F.3d 1171, 1176 (Fed.
Cir. 2018) (describing the prima facie framework as well).
“Under this framework, the patent examiner must first set
forth a prima facie case, supported by evidence, showing
why the claims at issue would have been obvious in light of
the prior art.” ACCO Brands, 813 F.3d at 1365. “Once the
examiner sets out this prima facie case, the burden shifts
to the patentee to provide evidence, in the prior art or be­
yond it, of argument sufficient to rebut the examiner’s evi­
dence.” Id. at 1365-66. “The examiner then reaches the
final determination on obviousness by weighing the evi­
dence establishing the prima facie case with the rebuttal
evidence.” Id. at 1366. “If this weighing shows obviousness
by a preponderance of the evidence, then the claims at is­
sue were unpatentable.” Id. “This burden-shifting frame­
work makes sense during patent examination because an
examiner typically has no knowledge of objective consider­
ations, and those considerations ‘may not be available until
years after an application is filed.’” In re Brandt, 886 F.3d
at 1176.
“The reasonable expectation of success requirement re­
fers to the likelihood of success in combining references to
meet the limitations of the claimed invention.” Intelligent
Bio-Systems, Inc. v. Illumina Cambridge Ltd., 821 F.3d
1359, 1367 (Fed. Cir. 2016).
A relevant artisan’s

Appx0034

Case: 20,1816

Document: 26

Page: 13

Filed: 12/14/2020

13

IN RE:EARLEY

“expectation of success need only be reasonable, not abso­
lute.” Pfizer, Inc. v. Apotex, Inc., 480 F.3d 1348, 1364,
1367-68 (Fed. Cir. 2007). “This court has long rejected a
requirement of conclusive proof of efficacy for obviousness.”
Acorda Therapeutics, Inc. v. Roxane Labs., Inc., 903 F.3d
1310, 1333 (Fed. Cir. 2018) (cleaned up).
1
Substantial evidence supports the Board’s finding that
a relevant artisan would “modifjy]” Simon’s induction gen­
erator—specifically, would “size and select an induction
generator as suggested by Simon to match the enhanced
capabilities of [the ’842 patent’s centrifugal-weight-control
assembly]” in order to produce more energy, Ex parte Earley, 2020 WL 1286056, at *1, i.e., “increasing amounts of
energy increasing wind speeds up to cut-out at 25 m/s,” as
required in claim 26’s preamble. Mr. Earley disputes that
finding because Simon’s generator could not be physically
combined with the ’842 patent. But the correct inquiry is
not limited to “an actual, physical substitution of ele­
ments”; “the test for obviousness is what the combined
teachings of the references would have suggested to” a rel­
evant artisan. In reMouttet, 686 F.3d 1322, 1332—33 (Fed.
Cir. 2012); see also In re Applied Materials, Inc., 692 F.3d
1289, 1298 (Fed. Cir. 2012) (“A reference must be consid­
ered for everything that it teaches, not simply the de­
scribed invention or a preferred embodiment.”); KSR Int’l
Co. v. Teleflex Inc., 550 U.S. 398, 418 (2007) (obviousness
inquiry must “take account of the inferences and creative
steps that a person of ordinary skill in the art would em­
ploy”). The Board here properly relied on the “technical
grasp of a person having ordinary skill in the art.” Ex parte
Earley, 2020 WL 1286056, at *1.
The Board could reasonably determine that there was
no evidence that justified a different finding about a rele­
vant artisan’s modification of the specific Simon generator.
Mr. Earley, who relies only on Simon’s specification, has

Appx0035

Case: 20-1816

Document: 26

Page: 14

Filed: 12/14/2020

IN RE: EARLEY

14

not shown otherwise. Mr. Earley repeatedly notes that Si­
mon’s specification is in miles per hour rather than meters
per second. See Op. Br. 1 (“Examiner does err when he fails
to understand that the quantitative work found in the prior
art of Simon is accomplished in mph (miles per hour) and
not m/s (meters per second).”); see also Op. Br. 3—4. To the
extent that Mr. Earley suggests that the Board’s finding
fails because a relevant artisan would not convert the units
from mph to m/s based on a very simple multiplicative re­
lationship, he has not pointed to any evidence to support
that implausible suggestion. Mr. Earley otherwise relies
on aspects of Simon’s specific induction generator, but that
reliance does not undermine the Board’s finding that a rel­
evant artisan would alter Simon’s specific generator to
achieve the 25 m/s capability.
2

Mr. Earley argues that the Board erred in failing to ac­
cept his assertion that a relevant artisan would not have a
reasonable expectation of success in using the ’842 patent’s
disclosure of a centrifugal weight control. Mr. Earley gives
two reasons. We find neither sufficient to show error.
First, Mr. Earley asserts that using the ’842 patent’s
centrifugal-weight-control assembly on a vertical shaft
would render the combination “inoperable.” Op. Br. 6-7.
Specifically, Mr. Earley asserts that “[t]he jackscrews and
guides” of the ’842 patent could not “support the amount of
weight that is called for” in the claimed invention. Op. Br.
7. The Board properly rejected this assertion as “based
merely on conclusory statements that are not accompanied
by any objective evidence (e.g., declaration evidence)
providing detailed specifics of the systems used for compar­
ison.” Ex parte Earley, 2020 WL1286056, at *2. The Board
also properly explained that Mr. Earley’s arguments about
what the ’842 patent’s centrifugal-weight-control assembly
could not do relied on properties or features not actually
required by claim 26—“e.g., a limitation on air brake size,

Appx0036

Case: 20-1816

Document: 26

Page: 15

Filed: 12/14/2020

15

IN RE:EARLEY

the exclusion of an aerodynamic means, a [centrifugalweight-control] diameter, ability to extend or retract
weights totaling eight thousand pounds, or induction gen­
erator rating.” Id. at *2.
Second, Mr. Earley contends that a relevant artisan
would “certainly see" the centrifugal-weight-control assem­
bly in the ’842 patent as an “air brake” that would cause a
“drag force,” preventing the combined prior art from having
the capability required by claim 26’s preamble. Op. Br. 8;
Reply Br. 4. Like his arguments for Simon’s induction gen­
erator, Mr. Earley’s contention addresses the wrong ques­
tion. It focuses only on the specific apparatus of the ’842
patent. It does not undermine the Board’s finding about
the ’842 patent’s overall teachings on the centrifugalweight-control assembly and Carter’s teachings on the lo­
cation of the assembly, among other components, at the
base of the support staff.
B
Mr. Earley also presents two challenges to the Board’s
inherency reasoning in finding that the combination of the
prior-art teachings would be a structure having the capa­
bility required by claim 26’s preamble. We reject both chal­
lenges.
1
Mr. Earley argues that the Board issued a new ground
of rejection when, in rejecting his second request for re­
hearing on the merits, the Board stated: “although we ap­
preciate that claim 26’s preamble language recites a new
capability rather than merely an intended use, this capa­
bility was already disclosed in [the ’842 patent] ....” Ex
parte Earley, 2020 WL 1286056, at *1; Op. Br. 5. We disa­
gree.
When the Board relies on “a new ground of rejection
not relied upon by the examiner, the applicant is entitled
to reopen prosecution or to request a rehearing.” In re

Appx0037

Case: 20-1816

Document: 26

Page: 16

Filed: 12/14/2020

IN RE: EARLEY

16

Leithem, 661 F.3d 1316, 1319 (Fed. Cir. 2011) (citing 37
C.F.R. § 41.50(b)). “Whether the Board relied on a new
ground of rejection is a legal question that we review de
novo.” In re Stepan Co., 660 F.3d 1341, 1343 (Fed. Cir.
2011). “The ultimate criterion of whether a rejection is con­
sidered new in a decision by the Board is whether appli­
cants have had fair opportunity to react to the thrust of the
rejection.” In re Leithem, 661 F.3d at 1319 (cleaned up); see
also In re Jang, 637 F.3d 1356, 1365 (Fed. Cir. 2011) (“It is
well-established that the Board is free to affirm an exam­
iner’s rejection so long as ‘appellants have had a fair oppor­
tunity to react to the thrust of the rejection.’”). Mr. Earley
had such an opportunity in his second rehearing.
In its first rehearing decision, the Board specifically ex­
plained how the examiner properly “pointed out that a
claim to an apparatus must be distinguished patentably
from the prior art in terms of structure rather than func­
tion”—the same point made in the second rehearing deci­
sion. Ex parte Earley, 2020 WL 489476, at *2. Because of
Mr. Earley’s “pro se status and the complex nature of this
prosecution,” the Board in the first rehearing decision “des­
ignated” its reasoning a new ground of rejection and gave
Mr. Earley “two options”: (1) reopen prosecution or (2) re­
quest a rehearing. Id. at *3. By taking the rehearing op­
tion, Mr. Earley had a fair opportunity to address this
ground of rejection—which was not materially changed by
the Board’s second rehearing decision. See In re Black, 778
F. App’x 911, 918 (Fed. Cir. 2019) (concluding that the ap­
plicant’s “opportunity to respond to the Board’s grounds for
rejection in the Request for Rehearing” was sufficient).
2
On the merits, the Board did not commit reversible er­
ror. “We have recognized that inherency may supply a
missing claim limitation in an obviousness analysis.” PAR
Pharm., Inc. v. TWI Pharm., Inc., 773 F.3d 1186, 1194-95
(Fed. Cir. 2014). Inherency is a question of fact. Id. at

Case: 20-1816

Document: 26

Page: 17

Filed: 12/14/2020

17

IN RE: EARLEY

1194; In re Napier, 55 F.3d 610, 613 (Fed. Cir. 1995). “In­
herency ... may not be established by probabilities or pos­
sibilities.” PAR Pharm., 773 F.3d at 1195. “The mere fact
that a certain thing may result from a given set of circum­
stances is not sufficient.” Id. A party must instead “show
that the natural result flowing from the operation as
taught would result in the performance of the questioned
function.” Id.
In the present case, the Board stated that Mr. Earley's
own application points to certain structural features as re­
sponsible for the preamble-required functional capability,
that the ’842 patent (being combined with teachings from
Carter and Simon) had the same structural features, and
that the combination therefore would have the functional
capability, unless objective evidence showed otherwise:
Because [the ’842 patent] wind turbine in­
cludes the same structural elements that [Mr. Ear­
ley’s present application] discloses are responsible
for the functional limitations recited in claim 26’s
preamble, the burden was on [Mr. Earley] to show
that [the ’842 patent’s] wind turbine as modified by
the suggestions in the other prior art references
would not inherently perform the same function re cited in claim 26. [Mr. Earley] does not direct us to
any objective evidence in satisfaction of meeting
that burden.
Ex parte Earley, 2019 Pat. App. LEXIS 10527, at *9-10.
That inherency reasoning is proper under the prima facie
framework.
Indeed, the Board needs only a “sound basis for believ­
ing” that the combined teachings of the prior art’s structure
results in the functional limitation. In re Spada, 911 F.2d
705, 708 (Fed. Cir. 1990) (“[W]hen the PTO shows sound
basis for believing that the products of the applicant and
the prior art are the same, the applicant has the burden of
showing that they are not.”); see also In re Ikeda Food

Appx0039

Case: 20-1816

Document: 26

Page: 18

Filed: 12/14/2020

IN RE: EARLEY

18

Research Co., Ltd., 758 F. App’x 952, 957 (Fed. Cir. 2019)
(obviousness case citing In re Spada, 911 F.2d at 708, for
the sound-basis proposition); In re Best, 562 F.2d 1252,
1255 (C.C.P.A. 1977) (“Where, as here, the claimed and
prior art products are identical or substantially identical,
or are produced by identical or substantially identical pro­
cesses, the PTO can require an applicant to prove that the
prior art products do not necessarily or inherently possess
the characteristics of his claimed product.”); Southwire Co.
v. Cerro Wire LLC, 870 F.3d 1306, 1311 (Fed. Cir. 2017)
(adopting In re Best’s burden-of-production framework).
The burden thus shifted to Mr. Earley to produce evidence
to rebut the Board’s initial finding. Mr. Earley did not do
so. The Board’s finding is supported by substantial evidence.
IV
We have considered Mr. Earley’s other arguments and
find them unpersuasive. For the reasons we have stated,
we affirm the Board’s conclusion that claims 26-29 of the
’235 application are unpatentable for obviousness.
Each party shall bear its own costs.
AFFIRMED

Case: 20-1816

Document: 29

Page: 1

Filed: 02/17/2021

NOTE: This order is nonprecedential.

®mteb States Court of Appeals!
for tfje jfeberal Circuit
IN RE: MATTHEW EARLEY,
Appellant
2020-1816
Appeal from the United States Patent and Trademark
Office, Patent Trial and Appeal Board in No. 12/925,235.
ON PETITION FOR PANEL REHEARING
Before PROST, Chief Judge, CLEVENGER and TARANTO, Cir­
cuit Judges.
Per Curiam.
ORDER
Matthew Earley filed a petition for panel rehearing.
Upon consideration thereof,
It Is Ordered That:
The petition for panel rehearing is denied.

Case: 20-1816

Document: 29

Page: 2

Filed: 02/17/2021

IN RE: EARLEY

2

The mandate of the court will issue on February 24,
2021.

For the Court
February 17. 2021
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

liHiNHinBiiaiiii
US006949842B2

(12)

US 6,949,842 B2
(io) Patent No.:
Sep. 27,2005
(45) Date of Patent:

United States Patent
Earley

(54)

(21)

3348,967 A * 5/1966 Lewis ............. ......... 74/572
4,926,107 A * 5/1990 Pinson ............ ............ 322/4

Subject to any disclaimer, the term of this
patent is extended or adjusted under 35
U.S.C. 154(b) by 25 days.

* cited by examiner
Primary Exatniner-—Nicholas PooomaieflltO
Assistant Examiner—Yahvcb Comae
ABSTRACT
(57)

Appl. No.; 10/967,456

(22) Filed;

Sep. 28,2004

(65)

Prior Publication Data
US 2005/0062291 At Mar. 24, 2005
Related U.S. Application Data

(63) Cdutinuation-iii-pait of application No. 10/091,088, filed on
Mat 6, 2002, now abandoned.
(60) Provisional application No. 60/303,884, filed on Jut. 10,
2001.

...................... FQ3D 9/00
... 290/55; 290/44; 74/572;
74/573 R; 74/89.23; 322/4

(51) Bit. Cl.7.......
(52) U.S.C1..........

References Cited
U.S. PATENT DOCUMENTS

(56)

(76) Inventor. Matthew Earley, 3226 Atlantic Ave.,
P.O. Box 213, Allenwood, NJ (US)
08720
(*) Notice;

.... .............290/55; 74/572,
74/573 R, 8923; 322/4

(58) Field of Search

CENTRIFUGAL WEIGHT CONTROL FOR A
WIND OR WATER TURBINE

The centrifugal weight control is a means of regulating
rpm’s on the low speed shaft in a changing wind (or water)
speed. As wind speed increases the weights are extended
farther from their hub. This extension as wind speed
increases does bring into play a greater inertial force. It is
Ibis greater inertial force that holds rpm’s constant and, at
the same time, increases rolling torque on the low speed
shaft. With sufficient increase in rolling torque additional
generators can be clutched into operation. Common knowl­
edge in the business is that the energy content of the wind
increases eight fold with each doubling of wind speed.
3 Claims, 6 Drawing Sheets

Motors Goar Sot
For Jaekocrow Control

jackstraw

<6

Slip Rings * 21

Weight * 8

>

\

Bevel #eer en# of
Jaekacrew # 2*

/

HIHIIl'in
Motor# 12

nmiim
Hub #23

\
Lew Speed
Shaft *11

OuMo # 10

Appx0041

w

?

U.S. Patent

Sep. 27,2005

Sheet 1 of 6

US 6,949,842 B2

WT/CWC Side View
Figure 1

Weight #8
Jack screw #9
Guide #10

Nacelle #7
Wind Direction

Motor and Gear set
for
Jack screw control
#12

Low
Speed
Shaft
#11

Blades # 13

Tower # 14

Appx0042

U.S. Patent

Sep. 27,2005

US 6,949,842 B2

Sheet 2 of 6

Centrifugal Weight
Top & Side View
Figure 2

Guide hole #15

Jack screw female #16

Top Down View

Side view

Appx0043

U.S. Patent

Sep. 27,2005

Sheet 3 of 6

US 6,949,842 B2

WT/CWC Front
View
Figure 3

Jackscrew l£9
(hidden)

Blades #13
Nacelle #7

/

V

Weight #8
Tower# 14

Appx0044

Guide # 10

!

U.S. Patent

Sep. 27,2005

US 6,949,842 B2

Sheet 4 of 6

Water turbine with Centrifugal Weight Control
Figure 4

Direction of
Water Flow

y9bOf« Un

CWC (centrifugal

weight control)
#18

«*

.Gearbox
#20

Generators
# 19

Low Speed Shaft P 11

Appx0045

/

;5*

U.S. Patent

Sep. 27,2005

US 6,949,842 B2

Sheet 5 of 6

Block Diagram
Weight Position Control
Figure 5

Rotor
Wind Speed

Low Speed Shaft

Control
Motor
for

(CWC)
A

w a
-- a

•« a
o (0

Weight
Position
Controller

o
sc

]/

Weight
Position

(microproce
ssor)

Appx0046

•a

U.S. Patent

Sep. 27,2005

US 6,949,842 B2

Sheet 6 of 6

Figure 6
Motor & Gear Set
For Jackscrew Control

Jackacrew

«-

Slip RM0* * 21

Weight* 8-

It

'!,/ Bevol

and of

Jackscrew # a*

C

lllllltlll
Motor# 12

Hub # 23

\
Low Spaed
Shaft* 11

GUM* • 10

Appx0047

to

US 6,949,842 B2
2

1

14. Tower
15. Guide bole
16. Jackscrew—female
17. Direction of Water Flow
This Continuation in Part does reference and claim
benefit of an earlier non-provisional application having a 5 18. CWC (centrifugal weight control assembly) FIG. 4
19. Gearbox
03/06/2002 filing date and application Ser. No. 10/091,088,
20. Generators
now abandoned, which in him referenced a provisional
21. Slip Rings
application having a 07/10/2001 filing date and application
22. Gear end of jackscrew
No. 60/303,884.
10 23. Hub
BACKGROUND OF INVENTION
DETAILED DESCRIPTION OF THE
INVENTION
Ibis invention is applicable to USPTO Classification 290
Sub-Classifications 43-44-53-55.
WT/CWC design, which manipulates centrifugal
Tbday’s wind and water turbines employ a variety of „ W6jgfn [Q
rmor ^,ccd (amj consequently generator
solutions to insure a constant operating speed (RPM). These
„ ^ dc|jvcr
enefgy as wind (or water) speeds
include passive stall, active stall, pitch control and guide increase whilc maintaining a desired operating speed
vanes. Each of these techniques effectively avoids capture of , .jA At higher wjnd or water speed increments, addiaddilional energy in an increasing flow so that rpm’s ran
tional ggnerJlore ^ be brought into play as the footremain constant. A constant operating speed is necessary for M
^ of A t0raue on t(je ]ow specd shaft increase.
60 and 50 cycle (cycles per ^t^ elec^cal erwironmeuts
water a
^ opcrating speed is typicaUy conon and off shore. Wind and water) ^peeds abovea^gtven
VJ0S that open and close to regulate the
range are taken out of play m tha th^e solutions do Drt
amoumo^aterthat flows pasUhe wheel (typical operation
wheel). In a water turbine with CWC the low
transform additional energy into electricity at higher flow
speeds. In a wtnd assumpUon the blades are pitched such *
shaft
extend onto shore where CWC would
that less surface is patented lo an mcreasmg unni In a
^
^ ^ ^ rotor, tow speed shaft and ncceswater assumption guide vanes are farther closed to deflect
^structure would be in the water (see FIG. 4). All
the increased flow of water.
other
(CWC/gearbox/generators/coniroi/etc.)
would
be
on
shore.
BRIEF SUMMARY OF INVENTION
30 Description of WT/CWC: (see FIGS. IX & 3)
The WT/CWC permits the capture and transformation of
1. At the far end of an extended low speed shaft (FIG.
energy in an increaang flow (wind or water) while main­
l#lfl) are weights that extend up and down on their
taining a desired operating speed. It does not, like other
guides as wind speeds increase or decrease. These
systems, avoid or deflect increases in flow to maintain
weights are on guides and move up and down with a
operating speed. As the speed of a flow increases the weights 35
“jack screw” type gear (FIG. l#7-8-9). The guides
of the CWC are extended. Such extension increases the
anchor on a hub that is at the downwind end of the low
rolling torque on the low speed shaft while maintaining
speed shaft Hie guides are simply steel rods on which
desired rpm’s. This CWC action permits capture and trans­
the weights (FIG. 2#14-15-16-17) extend or retract as
formation of additional offered kinetic energy. Said exten­
a function of wind speed. This “controlled action” will
sion of weights result in increases in inertial forces that are 40
deliver a constant rotor speed and increasing foot­
responsible for maintaining speed (rpm's) while increasing
pounds of rolling torque as wind speeds increase above
available rolling torque on the low speed shaft. This addi­
minimum (1" cut-in) specd.
tional rolling torqne is employed to drive additional genera­
2. In an increasing wind, extending weights farther away
tors under clutch control.
from the hub delivers an increasing centrifugal force
45
(inertial force) that in turn holds rotor speed constant
BRIEF DESCRIPTION OF THE SEVERAL
while delivering more tolling torque. As available
VIEWS OF THE DRAWINGS
rolling torque increases, additional generators (FIG. 4
#21) are brought into play and greater amounts of
FIG. l-r*tde view complete wind system
electrical energy are realized.
FIG. 2—top & side view of centrifugal weight
50
3. The “controlled action” is the synchronous movement
FIG. 3—front view of complete wind system
of the centrifugal weights closer to or farther from their
FIG. 4—fop down view of complete water system
hub depending on wind speed. The weights, guides aud
FIG. S—block diagram
jackscrews have minimal aerodynamic impact. In
below figures and in bench test three weights, guides
FIG. 6—motor & gear set
55
and jackscrews radiate from the bub. Having twice as
In both drawings the CWC has a vertical position relative
many may prove to be a more stable and responsive
to rotors & wheels. This is principally for illustrative pur­
design in fall scale.
pose and incidental to claims made.
4. The jackscrews are under motor control that is, in turn,
REFERENCE NUMERALS
under microprocessor control. Maintaining desired
60
tpm’s, weight position and clutch control for 2"‘, & 3
7. Nacelle
cut-in intervals will necessitate re-calibration/
8. Weight
modification of existing algorithms that control mul­
9. Jackscrew
tiple operations.
10. Guide
As one skilled in the ait will appreciate, current control
65
11. Low Speed Shaft
systems for active pitch can be re-employed to accommo­
12. Motor and Gear set for Jackscrew Control
date CWC /centrifugal weight control) in lieu of pitch.
13. Blades
CENTRIFUGAL WEIGHT CONTROL FOR A
WIND OR WATER TURBINE

Appx0048

!S

US 6,949,842 B2
4

3

Today’s turbine systems having active pitch control (or
The hub assembly to control the rotation of jackscrews of
active stall) employ hydraulics or stepper motors to change
CWC (centrifugal weight control) in unison can be a simpler
pitch of the blades. Necessary information for such control
assembly with fewer moving parts than assemblies neces(which may vary by product and manufacturer) typically
sary for controlling rotation of blades in unison. Significant
includes rotor revolutions, generator revolutions, shaft 5 thrust and axial forces thal must be dealt with in an active
pitch or stall solution do not come into play with CWC
torque and/or generator current. With this empirical
information, a computer (microprocessor) will,
(centrifugal weight control).
appropriately, signal the pitch change mechanism to increase
I claim:
or diminish the angle of attack of blades to maintain constant
j A spec{j and torque control system for a turbine of a
tpm’s on the tow speed shaft in a changing wind.
10
and water power generating assembly comprising:
Moving weights along their jackscrews, as with Changing
a fluid turbine driving a low speed shaft;
pitch angle of the blades in current art, is a positioning
a hub positioned at the end portion of said low speed shaft
application. One skilled in the art will appreciate this and
and rotating with the same speed as said shaft;
choose to use same hardware and software to control
Weights along their jackscrews as they are currently used to is
a plurality of centrifugal weight assemblies extending in
control pitch.
radial direction from the hub each having a weight, a
A variety of pitch control solutions in service today could
guide and a rotating jackscrew, wherein said guide and
be re-employed to sense a shaft speed and then signal a
said jackscrew are passing through said weight;
motor accordingly for appropriate weight position. A dia­
a
gear
box positioned inside said hub for rotating said
gram (FIG. 5) in block form reflecting same control is 20
jackscrew;
attached. Available control solutions including those from
a motor positioned inside the bub for rotating said jackBosch Rexroth AG and MLS Electro Systems could readily
screw through said gear,
be employed.
The existing microprocessor, programs, signaling,
an electrical controller for controlling said motor and
collectors, interfaces, gears, and hydraulic system or stepper 25
positioning said weights along radial guide in depen­
motor can be re-employed for turning jackscrews in unison
dence on the required rotational speed of said shaft.
to control weight position that in turn control rpm’s in lieu
2. Apparatus as set forth in claim 1;
of traditional pitch or stall methods for same rpm control.
wherein the increase in inertial force, due to weight
One example of motor control with centrifiigal weight
extension, both controls the rpin’s and increases rolling
control (as reflected in FIG. #6) would be to terminate the 30
torque on the low speed shaft.
hub end of the jackscrews as bevel gears with bearings thal
3. Apparatus as set forth in claim 2;
then mesh with a common bevel geur fixed to the shaft of a
wherein controlled centrifiigal weights, being an inertial
stepper motor. This motor, under program control, would
force, deliver increased rolling torque on the low speed
turn jackscrews for appropriate positioning of weights to
shaft as wind speeds increase while maintaining desired
maintain rpm's as changes occur in the speed of a flow (wind 35
rpm’s; the increased energy content found in an
or water). Other motors could be used including, for
increasing wind manifests it self as greater rolling
example, a rotary hydraulic motor. More sophisticated solu­
torque on the tow speed shafttions typically found in large-scale wind turbine systems
including independent movement of blades would not be
necessary or appropriate.

Appx0049

?s>

Case: 20-1816

Document: 18

Page: 37

Filed: 09/08/2020

Matthew Earley 732-528-9201
Figure #1

TuMno

fUelfitsb

44 Matan

Urn* speed
US Patent 8,948,842

Weight*
cwc
Low Speed
Shaft 16"
diameter

SUB

18IL diameter

Level 2
Tan Pawn View
Level 2

L

3

Level 1

Appx0050

r

Case: 20-1816

n

Page: 42

Document: 18

Filed: 09/08/2020

!

Figure

Matthew Earley
’ 732-528-9201

#6

36 Meter System

wtepeed

mm'i

tlpaneetl

ter

Velocttr 3k

Cp

Area

Power

wte distribution

23 hour factor

20 wear mod.

25.48

38.22
4246
46.71

8.07
8.07
807
807
807
807

216
343
512

9

4841
5648
6404
72.61

0.450
0.450
0.450
0.450
0.450

1016
1016
1018
1018
1018
1018
1018
1018
1018
1018

60407
96,241
143,660
204,647
280408
373,460
479,468
605,489
744,284
887,012

0.020
0.032
0080
0080

0.480

8
7
8

63.710
161,870
463,047
880,081
1253,847
1,962,907
2,583,074
2,991,503

29.72
33.97

10
11
12
13
14
15

to!

4609
48.71
48.74
46.74

729

8871
88.78.
8801
88.80

7.39

5.92

1000
1331
1728
2197
2744
3375

88.75
88.81
88.77
88.72
88.75
86.74

5.55
522

4098
4913

4.93
4.67
4.44
4.23
4.03

5832
6859

80.66
68.75

603
6.34

a
16
17
16
19
20
21
22
23
24

25

46.71
48.74

46.72
46.69
48.71*
48.70
46.71
46.78
48.75
48.71

68.75
88.84
88.83
88.75

3.70

8000
9261
10648
12167
13624

3.55

15625

3.86

0.450
0.445
0.442
0.435
0412
0.400
0280
0.370
0.340
0220
0.312

0290
0270
0250
0237

0085
0.100
0.103
0.094
0085

1021.563
1.164,084
1,345467
1454008
1098224
1001.833

1018
1018
1010
1016
1018
1016
1018
1018
1018
1018

1,925.395
2,048,336
2,154,902
2,308,991

0.768
1.440
1.920
2.040
2.400

2.460
2.256

0.075

2.040
1.800

0060
0.050

1.440
1.200

0.040
0.032
0.020
0.018
0.010
0.010

0.960

0.009
. 0.005

0.768
0.460
0.432
0240
0240
0218
0.188

3,325,076
3417,759
17.072.573
3221,885
3059212
2.828,710
2445076
1,877,951
1,704,489
1,011,968
1,078,805
1,019,355

950,658
38.fB8.882

Proposed

Technology

11
!

i

Appx0051

Application/Control Number: 12/925,235
Art Unit: 2831

Page 7

improper definition of a process, i.e., results in a claim which is not a proper process claim under
35 U.S.C. 101. See for example Ex parte Dunki, 153 USPQ 678 (Bd.App. 1967) and Clinical
Products, Ltd. v. Brenner, 255 F. Supp. 131,149 USPQ 475 (D.D.C. 1966).
23.

In the event the determination of the status of fee application as subject to ALA 35 U.S.C.

102 and 103 (or as subject to pre-AIA 35 U.S.C. 102 and 103) is incorrect, any correction of the
statutory basis for the rejection will not be considered a new ground of rejection if the prior art
relied upon, and the rationale supporting the rejection, would be the same under either status.
Claim Rejections - 35 USC § 103
24.

The following is a quotation of pre-AIA 35 U.S.C. 103(a) which forms fee basis for all

obviousness rejections set forth in this Office action:
(a) A patent may not be obtained though the invention is not identically disclosed or described as set
forth in section 102, if the differences between the subject matter sought to be patented and the prior aft
are suehthat the subject matter as a whole would have been obvious at the time the invention was made
to a person having ordinary skill in the art to which said subject matter pertains. Patentability shall not
be negatived by the manner in which die invention was made.

25.

The factual inquiries set forth in Graham v. John Deere Co., 383 U.S. 1,148 USPQ 459

(1966), that are applied for establishing a background for determining obviousness under preAIA 35 U.S.C. 103(a) are summarized as follows:
1. Determining the scope and contents of the prior art.
2. Ascertaining the differences between fee prior art and fee claims at issue.
3. Resolving fee level of ordinary skill in fee pertinent art.
4. Considering objective evidence present in the application indicating obviousness or
nonobviousness.

Appx0052

I*

Application/Control Number: 12/925,235

Page 8

Art Unit: 2831
26.

Claims 26-29 are rejected under pre-AIA 35 U.S.C. 103(a) as being unpatentable over

U.S. Patent No. 6,949,842 B2 to Earley in view of U.S. Patent No. 3,942,026 to Carter and U.S.
Patent Application Publication No. 2010/0207396 A1 to Simon.
Earley clearly teaches, in Figures 1 and 3, a centrifugal weight control for a wind turbine,
comprising:
a supporting framework (see Figures 1 and 3) including:
a supporting tower (Tower #14 in Figures 1 and 3);
a rotor with fixed pitch blades (see Figure 3);
a horizontal low speed shaft (#11 in Figure 1) that couples to said rotor for
rotation with said rotor; and
a centrifugal weight control apparatus (CWC in Figures 1 and 3) that
drivingly connects to said horizontal low speed shaft at opposite end of said
elevated platform.
Earley also clearly teaches, in Figure 4, a centrifugal weight control for a water turbine,
comprising:
a right angle gearbox having a low speed input connected to said horizontal low
speed shaft;
an extended horizontal shaft (see Figure 4) that journals to output side of said
right angle gearbox;
a gearbox (#20 in Figure 4) having a low speed input connected to said extended

horizontal shaft;
a high speed output of said gearbox;

Appx0053

Application/Control Number: 12/925,235
Art Unit: 2831

Page 9

a clutch (see ABSTRACT; column 1, line 44; column 2, line 61) that journals to
said high speed output (see Figure 4); and
a generator (#19) that operatively connects to said clutch for rotation at desired
speeds.
However, Earley fails to disclose:
said extended horizontal shaft being vertically oriented;
said gearbox being a multi-geared transmission; and
said generator being an induction type generator.
Carter discloses a wind turbine with governor, comprising:
an extended vertical shaft (80) connecting a right angle gearbox (gears 86 and 98)
to a multi-geared transmission (gears 94 and 96) having a low speed input (first bevel
gear 94) and a high speed output (second bevel gear 96) of said multi-geared
transmission;
wherein said high speed output is connected to the input of a generator (100)
placed on a supporting platform (20) at the base of a framework (12) (see Figure 1).
Simon discloses a power generating system, comprising:
a multi-speed transmission (30) having multiple gears (see Figures 3-7); and
a induction generator (36; see paragraph [0026] — "the power conversion module
18 includes an induction generator, which provides a cost-effective machine for
converting the rotational energy to electricity for power to the grid 22.’).

Appx0054

<?*»

Case: 20-1816

flr-

Document: 18

Page: 57

Filed: 09/08/2020

Page 10

Application/Control Number: 12/925,235
Art Unit: 2831

It would have been obvious to one skilled in the art at the time die invention was made to
use the extended vertical shaft disclosed by Carter on the supporting tower disclosed by Earley
for the purpose of providing mechanical power to a generator located at the base of a tower.
It would have also been obvious to one skilled in die art at the time the invention was
made to use the multi-speed transmission (in lieu of die multi-geared transmission disclosed by
Earley) and an induction generator (in lieu of the generator disclosed by Earley or the generator
disclosed by Carter) disclosed by Simon on the wind turbine disclosed by Earley for the purpose
of providing multiple high-speed outputs instead of a angle high-speed output from the
transmission and providing “a cost-effective machine for converting the rotational energy to
electricity" (see paragraph [0026] of Simon).
27.

With regards to daim 27, Carter discloses the tower also supporting an integrated vertical

rhassis (see Figure 1) to carry vertical and lateral loads of the low speed shaft.
28.

With regards to claim 28, both Carter and Simon disclose a multi-geared transmission for

maintaining a desired generator speed in an increasing (or decreasing) wind speeds.
29.

With regards to claim 29, Earley discloses the extension or retraction of weights in the

centrifugal weight control apparatus and excitation of induction generator will, under program
control (see column 3, lines 21-28), offer enough opposing torque to control rotor speed up to
cut-out at 25 m/s, if and when said wind turbine is exposed to such wind speeds.
Conclusion
30.

This action is a final rejection and is intended to close the prosecution of this

application. Applicant’s reply under 37 CFR 1.113 to this action is limited either to an appeal to

Appx0055

May 12,2011

US 2011/0109096 A1
1
FIXED PITCH WIND (OR WATER) TURBINE
WITH CENTRIFUGAL WEIGHT CONTROL
(CWC)
(0001] This non-provisional application does reference and
claim benefit of an earlier provisional application having an
Nov. 6,2009 filing date and application No. 61/280,606.
BACKGROUND OF INVENTION
[0002] The invention incorporates a unique and patented
means of controlling rotor speed and is in lieu of traditional
aerodynamic solutions (pitch or stall). In current systems
pitch or stall in conjunction with generator torque is the
typical solution for speed control. In the proposed system the
weight scheme in conjunction with generator torque will
control rotor speed.
BRIEF SUMMARY OF INVENTION
[0003] The fixed pitch rotor and centrifugal weight control
willpermitthe generation ofincreasing amounts ofenergy for
the foil distribution of operating speeds in both wind and
water scenarios. Current technology captures and transforms
less titan half of the energy content available in the discussed
distribution. In wind, operatingspeed is typically up to 25 m/s
though rated power is typically reached at 14 or 15 m/6. In
water, highest flow rate is typically 3.4 mIs tiiough rated
power is usually at 2.4 m/s. The table in FIG. 6 shows a
20-year projection for a 36-mctersystem with power totals at
15 m/s for current solution and 25 mis for the discussed
solution.
[0004] Further, this same weight control scheme permits
useofatransmissionOnlieu of gearbox). Inso doing therefor
can continue to increase speed (rpm’s) in an increasing flow
(wind or water) while generator speed can be held constant
via gear ratio reductions offered by the transmission.
BRIEF DESCRIPTION OF THE SEVERAL
VIEWS OF THE DRAWINGS AND TABLES
[0005] FIG. 1 Fixed Pitch Wind Turbine w/CWC
{0006] FIG. 2 Fixed Pitch Water TuAine w/CWC
[0007] FIG. 3 CWC System/Wind Implementation
[0008] FIG. 4 CWC Storage Calculations
[0009] FIG. 5 Nacelle top down view
[0010] FIG. 6 Power/Energy Tables
DETAILED DESCRIPTION OF THE INVENTION
[0011) Tliis fixed pitch wind (or water) turbine mates use
of a patented (U.S. Pat . No. 6,949,842) control solution know
as “Centrifugal Weight Control”—or CWC. Such an imple­
mentation presents an opportunity to extend the low speed
shaft down the length of foe tower (wind tu Aine) orup above
the water line (water turbine). See FIGS. 1 & 2 respectively.
[0012] In tbe wind implementation, extending the low
speed shaft down the length ofthe tower also means you can
move other major components down, including generatorand
gearbox. Doing so results inseveral compelling advantages as
outlined below:
[0013] Significant reductions intop head mass (weight at
top of tower) can be realized.
{0014] Moving the generators) to the base of the tower
permits the use of a larger, heavier and less costly gen­
erator product.

{0015} At the base of the tower available space will
accommodate a generators) having a greater number of
pole pairs.
|0016) The need for lightweight technology employing
rare earth elements will no longer be necessary.
[0017) More polepairs in the generator will permit lower
gear ratios in the gpaibox (or transmission).
(0018] Economies in tbe built phase and ongoing opera­
tion and maintenance of the system will be realized.
{0019] An inherently stronger fixed pitch solution will
accommodate increases in blade solidity. Solidity
increases equate to increases in torque that, in tum
equate to increases in power.
|0020] Employing CWC (in lien of pitch or stall solutions)
in conjunction with induction generator torque, enables on
demand control of necessary amounts of opposing torque to
manage rotor speed in gusty and increasing wind speeds
through cut-out... typically 25 meters per sccoitd. The sum
of opposing torques found in full extension of weights and
generators) at rated power must be greater than rotor torque
at 25 m/s.
[0021] CWC will dampen and temporally store energy.
FIG. 4 demonstrates storage capability of CWC with eight
weights (each at 1000 lbs). Such temporary storage will
relieve stresses currently known to damage gearboxes.
Downtime and costly repairs or replacement can be avoided.
[0022] Under program control CWC will be used in
response to two recurring operating conditions:
{0023] In response to wind gusts or turbulent flows (wa­
ter), the plurality of weights on jaefcserews in conjunc­
tion with generator torque will be employed to control
rotor speed through 25 m/s (3.4 m/s water). Generator
torque will increase only at a rate that the gearboxes can
easily tolerate. This parallel extension of weights and
useof generator torque will assure control ofrotor speed
and its rate of increase. When adequate control is
achieved generator torque will be further increased to
take additional energy from what is stored in the
extended weights and accordingly the weights will
retract.
]0024] CWC will control rotor speed while gear changes
occur. CWC will temporarily displace generator torque
(during disengagement) while the clutch operates for
gear change.
_
(0025] In boflt wind and water implementations the CWC
configuration is horizontal (perpendicular to vertical low
speed shaft). A rotating and circular guide/sled on roller bearings will bo necessary to carry tbe CWC weights as they
extend or retract for routine operation. Sec FIG. 3.
[00261 In the wind implementation stopping/parking the
rotor at cutout will employ both yaw and conventional
brakes.. In the water implementation yaw may be used to
reduce load, but braking to overcome rotor forces will not be
employed. When flows in excess of 3.4 m/s are encountered
the rotor and low speed shaft will disengage from generator
(via clutch) and weights will fiilly retract. Rotor will turn
freely until normal operating conditions return.
[0027] In both wind and water implementations a vertical
chassis integral to tower or monopile, will be necessary to
carry vertical and lateral loads of the low speed shaft.
(0028] Clutch operation for gear changes will be under
program control. This control will extend or retract weights to
con trol rotor speed and manage generator speed while disen­
gaged to accommodate a gear change. Gear changes will

Appx0056

Case: 20-1816

CD

Document: 18

Filed: 09/08/2020

Page: 31

PTOfSB/05 (08-08)
Approved for ms through 0913012010. OMB 0651-0032
U.S. Patent and Trademark Office. U.S. DEPARTMENT OF COMMERCE
Under the Paperwork Reduction Act of 1995 no neraons are required to reaaanri to a cnl»rkon of information unless It displays a valid OMB control number

C-

O
T3

Attorney Docket No.

UTILITY
PATENT APPLICATION
TRANSMITTAL

o

Matthew Earley

Fuat Inventor

Fixed Pitch Wind (Water) turbine w/

We

(Only for new nonpnsvishnalapptcadons under 37 CFR 1.53(1})

Express Mall Label No.

APPLICATION ELEMENTS

Commissioner for Patents
P.O. Bex 1460
Alexandria VA 22313-1460

ADDRESS TO:

See UPBP chapter 500 amoeming utfoy patent aflpftattvj contents.
1. [7] Fee Transmittal Form (e.g., PTOfSB/17)

ACCOMPANYING APPUCATION PARTS

2.m Applicant claims small entity status.
_ See 37 CFR 1.27.
[Tbfef Pages
5
3.1/1 Specification
Both the claims and abstract must start on a new page
par Mtomaftoft on pteOmS snangsmnf, sw MPEP SOI.eift))
4.f71 Drawlng(s) (35 U.S.C. 113) [Total Sheets
6

[Total Sheets
3
5. Oath or Declaration
Newly executed (original or copy)
A copy from a prior application (37 CFR 1.63(d))
(faroontfnuationAIMsionel with Box 18 completed)
ID DELETION OF INVENTORfS)
Signed statement attached delating imentorfs)
name In the prior application, see 37 CFR
1.63(d)(2) and 1.33(b).

9. CD Assignment Paper* (cover sheet & documents))
1

Name of Assignee

'f

__________________

1

J

tS

t

10. Q 37 CFR 3.73(b) Statement
(when there is an assignee)

|

| Power of
Attorney

11. □ English Translation Document pf applicable)
12 □ information Disclosure Statement (PTorSBroa or PTO-1449)
I__I Copies of citations attached

0- Q

Application Data Sheet See 37 CFR 1.76

13.0 Preliminary Amendment

7. CD

CD-ROM or CD-R in duplicate, large table or
Computer Program (Appendix)
I I Landscape Table on CD

14. m Return Receipt Postcard (MPEP 503)
(Should be specifically itemized)

8.

u.o. r i u
12/925235
10/18/2010

15. n Certffiad Copy of Priority Documents)
(if foreign priority is claimed)

Nucleotide ahdfor Amino Add Sequence Submission
Of applicable, dams a. - c. are requited)
a. £D Computer Readable Form (CRF)
Specification Sequence Listing on:
b.
i. CD
ii. □

16. (“] Nonpublication Request under 35 U.S.C. 122(b)(2)(B)(i).
— Applicant must attach form PTOfSB/35 or equivalent

CD-ROM or CD-R (2 copies); or
Paper

17. CD othor

c. CD Statements verifying Identity of above copies_______ ________
___ _
16. If a CONTINUING APPUCATION, check appropriate box, and supply Ore requisite information betow'and in the first sentence of the
specification following the title, or in an Application Data Sheet under 37 CFR 1.76:
I

I Continuation

CD Divisional

PrioroppScaSon information:

Fxaminer

CD Continuation-in-part (CIP)

of prior application No.:..................................

_______________________

Art Unit________________ ___________

19. CORRESPONDENCE ADDRESS
I

OR

I The address associated with Customer Number

Name

Matthew Earley
3226 Atlantic Ave PO Box 213

Address
City

AHenwood

Country

USA

|

State

[ New Jersey

Telephone j 732-528-3201

Name

oe)

Zip Code
Emafl

08720
earteymatt@aol.com

Date October 10,2010
Registration No.
(Attomev/Aoent)

f Signature

l

\S\Conaspondenoa address beta*

1 Matthew Earley

This eonedkm of WbmwBon b required by 37 CFR 1.53(b). The Information O required fo obtain or retain a benefit by the pubfic which b to tile (and by the
USPTO to process) an ***»*». Confidentiality is governed by 35 U.S.C. 122 and 37 CFR 1.11 and 1.14. This ooUecdon is eatknatod tolate 12 minutes to
complete, Including gathsring, preparing, and submining the completed application form to the USPTO. Time wrt very depending upon the individual casaAny
comments on the amount of tkne you require to complete this torm andter suggestions for reducing this button, should be sent to the Chief tnfemwilon onwer.
U.S Patent and Trademark Office, U.S. Department of Commerce, P.O. Box 1450, Alexandria, VA 22313-1450. DO NOT SEND FEES OR COMPLETED
FORMS TO THIS ADDRESS. SEND TO; Commissioner for Patents, P.O. Box 1460, Alexandria, VA 22313-1450.
ITyou need assistance In
treated qpfton 2.

Appx0057

Case: 20-1816

Document: 18

Page: 32

Filed: 09/08/2020

Specification:
This non-provisional application does reference and claim benefit of an earlier
provisional application having an 11/6/2009 filing date and application number
61/280,606.
Title of Invention:
Fixed Pitch Wind (or Water) Turbine with Centrifugal Weight Control (CWC)
Background of Invention:
The invention incorporates a unique and patented means of controlling rotor speed and is
in lieu of traditional aerodynamic solutions (pitch or stall). In current systems pitch or
stall in conjunction with generator torque is the typical solution for speed control. In the
proposed system the weight scheme in conjunction with generator torque will control
rotor speed.
Brief Summary of Invention:
The fixed pitch rotor and centrifugal weight control will permit the generation of
increasing amounts of energy for the full distribution of operating speeds in both wind
and water scenarios. Current technology captures and transforms less than halfof the
energy content available in the discussed distribution. In wind, operating speed is
typically up to 25 m/s though rated power is typically reached at 14 or 15 m/s. In water,
highest fldw rate is typically 3.4 m/s though rated power is usually at 2.4 m/s.
The table in Figure # 6 shows a 20-year projection for a 36-meter system with power
totals at 15 m/s for current solution and 25 m/s for the discussed solution.
Further, this same weight control scheme permits use of a transmission (in lieu of
gearbox). In so doing the rotor can continue to increase speed (ipm’s) in an increasing
flow (wind or water) while generator speed can be held constant via gear ratio reductions
offered by the transmission.
Brief Description of the Several Views of the Drawings and Tables:
Figure - 1
Figure - 2
Figure - 3
Figure-4
Figure-5
Figure-6

Fixed Pitch Wind Turbine w/CWC
Fixed Pitch Water Turbine w/CWC
CWC System / Wind Implementation
CWC Storage Calculations
Nacelle top down view
Power / Energy Tables

Appx0058

Case: 20-1816

Document: 18

Page: 33

Filed: 09/08/2020

Detailed Description of the Invention:
This fixed pitch wind (or water) turbine makes use of a patented (US 6,949,842) control
solution know as “Centrifugal Weight Control” - or CWC. Such an implementation
presents an opportunity to extend the low speed shaft down the length of the tower (wind
turbine) or up above the water line (water turbine). See figures 1 & 2 respectively.
In the wind implementation, extending the low speed shaft down the length of the tower
also means you can move other major components down, including generator and
gearbox. Doing so results in several compelling advantages as outlined below:
■ Significant reductions in top head mass (weight at top of tower) can be
realized.
■ Moving the generators) to die base of the tower permits the use of a
larger, heavier and less costly generator product.
■ At the base of the tower available space will accommodate a generator(s)
having a greater number of pole pairs.
■ The need for lightweight technology employing rare earth elements will
no longer be necessary.
■ More pole pairs in the generator will permit lower gear ratios in the
gearbox (or transmission).
■ Economies in the built phase and ongoing operation and maintenance of
the system will be realized.
■ An inherently stronger fixed pitch solution will accommodate increases in
blade solidity. Solidity increases equate to increases in torque that, in turn
equate to increases in power.
Employing CWC (in lieu of pitch or stall solutions) in conjunction with induction
generator torque, enables on demand control of necessary amounts of opposing torque to
manage rotor speed in gusty and increasing wind speeds through cut-out ... typically 25
meters per second. The sum of opposing torques found in full extension of weights and
generators) at rated power must be greater than rotor torque at 25m/s.
CWC will dampen and temporally store energy. Figure # 4 demonstrates storage
capability of CWC with eight weights (each at 1000 lbs). Such temporary storage will
relieve stresses currently known to damage gearboxes. Downtime and costly repairs or
replacement can be avoided.
Under program control CWC will be used in response to two recurring operating
conditions:
■ In response to wind gusts or turbulent flows (water), the plurality of
weights on jackscrews in conjunction with generator torque will be
employed to control rotor speed through 25 m/s (3.4 m/s water).
Generator torque will increase only at a rate that the gearboxes can easily

Appx0059

Case: 20-1816

Document: 18

Page: 34

Filed: 09/08/2020

tolerate. This parallel extension of weights and use of generator torque
will assure control of rotor speed and its rate of increase. When adequate
control is achieved generator torque will be further increased to take
additional energy from what is stored in the extended weights and
accordingly the weights will retract.
• CWC will control rotor speed while gear changes occur. CWC will
temporarily displace generator torque (during disengagement) while the
clutch operates for gear change.
In both wind and water implementations the CWC configuration is horizontal
(perpendicular to vertical low speed shaft). A rotating and circular guide / sled on roller
bearings will be necessary to cany the CWC weights as they extend or retract for routine
operation. See Figure #3.
In the wind implementation stopping / parking the rotor at cutout will employ both yaw
and conventional brakes. In the water implementation yaw may be used to reduce load,
but braking to overcome rotor forces will not be employed. When flows in excess of
3.4m/s are encountered the rotor and low speed shaft will disengage from generator (via
clutch) and weights will fully retract Rotor will turn freely until normal operating
conditions return.
In both wind and water implementations a vertical chassis integral to tower or monopile,
will be necessary to carry vertical and lateral loads of the low speed shaft.
Clutch operation for gear changes will be under program control. This control will
extend or retract weights to control rotor speed and manage generator speed while
disengaged to accommodate a gear change. Gear changes will routinely occur to
maintain desired generator rpm’s across the distribution of operating wind speeds. Same
control will be applied to the water turbine.
Centrifugal weight control, fixed pitch, an extended low speed shaft and transmission
distinguish the discussed solution from present day wind and water turbines.

Appx0060

Case: 20-1816

Document: 18

Page: 35

Filed: 09/08/2020

Claim or Claims:
1. A wind (water) turbine power generating assembly comprising:
a fixed pitch blade / rotor assembly;
an extended low speed shaft with 1:1 gearbox for 90° turn;
a centrifugal weight control assembly;
a clutch and transmission assembly in lieu of traditional gearbox;
an assembly at the tower base including CWC, transmission, and generator(s);
2. Apparatus as set forth in claim 1;
wherein increasing amounts of power will be generated in the 15 to 25 m/s range
for wind and the 2.4 to 3.4 m/s range for tidal (bi-directional flow);
wherein optimized tip speed ratio can be maintained for the entire operating range
of flie flow (wind or water).
3. Apparatus as set forth in claim 2;
wherein initial build and ongoing operational and maintenance costs will be
significantly less than current technology.

Case: 20-1816

Document: 18

Page: 36

Filed: 09/08/2020

Abstract of the Disclosure:
The Fixed Pitch Wind (Water) turbine is a more productive system than current
technology in that it extracts increasing amounts of energy from wind (or water) flows
throughout typical operating ranges (25 m/s for wind and 3.4 m/s for tidal). Further, an
inherently stronger fixed pitch solution can have greater blade solidity that will, in turn
increase torque across the entire operating range.
Extending the low speed shaft brings major and heavy system components to the tower
base (for wind) or above water line (tidal) for reduced cost, both initially and on an
ongoing basis.
The weight control system acts as a buffer for energy storage that will accommodate
gusty or turbulent conditions and also facilitate gear changes as the speed of the rotor
changes.

Case: 20-1816

Document: 18

Page: 37

Filed: 09/08/2020

Matthew Earley 732-528-9201

Figure # 1

38 Meter Fixed Pitch Tiflft/ne
23QMW

Fixed Pitch

Level 1
Side View

1

^ -__ —low speed'Shaft

: hitch

44 Metero

Qenersur

Low speed Sha1
US Patent 6,949,842

Weights
cwc

Low Speed
Shaft 16”
diameter

Level 2

Jackacimna
Guide*
18 a diameter

Level 2
Too Dawn View

i-

^3.
Oecilw

Level 1

Appx0063

Case: 20-1816

Document: 18

Page: 38

Filed: 09/08/2020

Matthew Earley 732-528-9201

Shaft
^rtngHghTKte

1

Qwfe*

Seated

Appx0064

Case: 20-1816

Document: 18

Page: 39

Filed: 09/08/2020

Matthew Earley 732-528-9201

Figure # 3

CWC Side View

i k

Level 2

Low Speed
Shaft

\

i

Sled /Guide

Weight

Roller bearings

\

-

Motor

\
T

\

Level 1

Appx0065

<>

i

Case: 20-1816

Document: 18

Page: 40

Filed: 09/08/2020

Matthew Earley 732-528-9201
Figure #4

CWC calculations
Convert weights to kg 8 weights @1000
Convert feet to meters
Moment of inertia II
Moment of inertia 18
RPM's / Radians
Stored 2 ft radius (joules)
Stored 10 ft radius (joules)
Net energy (joules)
Convert lbs weight to mass in slugs
Inertia MR2
Inertia MR2
In MKS find energy stored
Stored Energy at 2 ft radius
Stored Energy at 10 ft radius
Net Energy Stored (FT-pd)
Net Energy 110,706 joules or 30.8 kWh

2

3,628.7
0.61

10

3.05

1000

1,348.5
33,711.9
2.6

25

4,612.8
115,319.5
110.706.7
248.4
993.8

8000
2 ft
10 ft

24.844.7

3,399.5
84,987.2
81,587.7
30.8

Turbulent Flow lOkw / sec
Energy (f )t-pds

Time / Seconds
1

0.0
3,685.0

2
3
4
5

14,740.0
33,165.0
58.960.0
92,125.0

0

Turbulent Flow lOkW or 3846 nt-m
RVr =3846 nt-m / 2 x 3628kg x 2.6 radians=meters per second
Weights must move at 0.203 m/sec or .66 ft/sec

Appx0066

Case: 20-1816

Document: 18

Filed: 09/08/2020

Page: 41

Matthew Earley 732-528-9201
Figure # 5

Nacelle
Top Down View

1

ft

Low Speed Shaft
Gearbox 1:1

II

I

\
Beveled Gear

Disk brakes

« r*

Appx0067

7

Case: 20-1816

6
7
8
9
10
11
12
13
14
15
Icurrenl Technology
16
17
18
19
20
21
22
23
24
25
Proposed
Technology

Page: 42

Filed: 09/08/2020

Figure
#6

Matthew Earley
732-528-9201
38 Meter System
w/epeed

Document: 18

mm's

tip speed

tar

Velocity 3x

25.48
29.72
33.97
38.22
42.46
46.71
46.69
46.71
46.74
48.74

4641
56.48
64.54
72.61
60.68
86.75
86.71
88.76.
88.61
86.60

8.07
6.07
8.07
8.07
8.07
8.07
7.39
6.63
6.34
5.92

216
343
512
729
1000
1331
1728
2197
2744
3375

46.71
46.74
46.72
46.69
46.7146.70
48.71
46.76
46.75
46.71

68.75
66.61
88.77
88.72
86.75
88.74
88.75
68.84
88.83
88.75

5.55
5.22
4.93
4.67
4.44
4.23
4.03
3.86
3.70
3.55

4096
4913
5832
6859
8000
9261
10648
12167
13824
15625

w/s distribution

24 hour factor

20 year prod.

60,607
96,241
143,660 .
204,547
280,566
373.460
479,466
605,489
744,264
887,012

0.020
0.032
0.060
0.080
0.085
0.100
0.103
0.094
0.085
0.075

0.480
0.768
1.440
1.920
2.040
2.400
2.460
2.256
2.040
1.800

1,021,583
1,164,084
1,345,467
1,454,098
1,596,224
1,801,633
1,925,395
2,048,336
2,154,902
2,308,991

0.060
0.050
0.040
0.032
0.020
0.018
0.010
0.010
0.009
0.005

1.440
1.200
0.960
0.766
0.460
0.432
0.240
0.240
0.216
0.186

63,710
161,870
453,047
860,081
1,253,547
1,962,907
2,583,074
2,991,503
3,325,076
3,417,759
17.072.573
3,221,665
3,059,212
2.628,710
2,445,676
1,677,951
1,704,489
1,011,988
1,076,605
1,019,355
950,656

Area

Power

0.450
0.450
0.450
0450
0.450
0.450
0.445
0.442
0.435
0.412

1016
1018
1018
1018
1018
1018
1018
1018
1018
1018

0.400
0.380
0.370
0.340
0.320
0.312
0.290
0.270
0.250
0.237

1018
1018
1018
1016
1018
1018
1018
1018
1018
1018

36.068,682

11

Appendix
Decision on Appeal
Decision on Request for Rehearing
Second Decision on Request for appeal
US Court of Appeals Decision
US Patent No. 6,949,842 B2
Figure 1 of application
Figure 6 of application
Final Rejection of 1/6/2017
Page 1 of Specification
Application s/n 12/925,235

Application 12/925,235 Case # 2020-1816

AppxOOOl

Appx0012
Appx0017
Appx0023
Appx0041
Appx0050
Appx0051
Appx0052
Appx0056
Appx0057

18

